APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Order in the United
States District Court for the Western
District of Wisconsin
(September 16, 2021) . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court for the Western District of
Wisconsin
(September 21, 2021) . . . . . . . . . App. 13
Appendix C Hunter Complaint for Declaratory and
Injunctive Relief in the United States
District Court for the Western District
of Wisconsin
(August 13, 2021) . . . . . . . . . . . . App. 18
Appendix D First Amended BLOC Complaint for
Declaratory and Injunctive Relief in
the United States District Court for
the Western District of Wisconsin
(September 21, 2021) . . . . . . . . . App. 42
Appendix E Supreme Court of Wisconsin Order
(September 22, 2021) . . . . . . . . . App. 90

App. 1

APPENDIX A
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF WISCONSIN
Case Nos. 21-cv-512-jdp-ajs-eec &
21-cv-534-jdp-ajs-eec
[Filed: September 16, 2021]
_________________________________________
LISA HUNTER, JACOB ZABEL,
JENNIFER OH, JOHN PERSA,
GERALDINE SCHERTZ, and
KATHLEEN QUALHEIM,
Plaintiffs,
v.

)
)
)
)
)
)
)
MARGE BOSTELMANN,
)
JULIE M. GLANCEY, ANN S. JACOBS,
)
DEAN KNUDSON,
)
ROBERT F. SPINDELL, JR.,
)
and MARK L. THOMSEN, in their official
)
capacities as members of the
)
Wisconsin Elections Commission,
)
Defendants,
)
)
and
)
)
WISCONSIN LEGISLATURE,
)
Intervenor-Defendant.
)
_________________________________________ )

App. 2
_________________________________________
BLACK LEADERS ORGANIZING
FOR COMMUNITIES,
VOCES DE LA FRONTERA,
the LEAGUE OF WOMEN VOTERS
OF WISCONSIN, CINDY FALLONA,
LAUREN STEPHENSON, and
REBECCA ALWIN,
Plaintiffs,
v.

)
)
)
)
)
)
)
)
)
)
MARGE BOSTELMANN,
)
JULIE M. GLANCEY,
)
ANN S. JACOBS, DEAN KNUDSON,
)
ROBERT F. SPINDELL, JR., and
)
MARK L. THOMSEN, in their official
)
capacities as members of the
)
Wisconsin Elections Commission, and
)
MEAGAN WOLFE, in her official capacity )
as the administrator of the
)
Wisconsin Elections Commission,
)
Defendants.
)
__________________________________________
OPINION and ORDER
This panel has been assigned two cases about the
malapportionment of Wisconsin’s state legislative and
congressional districts following the 2020 census. Case
No. 21-cv-512 is brought by a group of individuals that
the court will call “the Hunter plaintiffs” because the
first named plaintiff is Lisa Hunter. Case No. 21-cv-534
is brought by a number of individuals and
organizations that the court will call “the BLOC

App. 3
plaintiffs” because the first named plaintiff is Black
Leaders Organizing for Communities. There are
several motions pending in the two cases that the court
will address in this opinion.
A. Motions for intervention in Case No. 21-cv-512
Three sets of proposed intervenors seek to join the
’512 case: (1) other Wisconsin residents bringing
malapportionment claims who have also filed a petition
for original action in the Wisconsin Supreme Court (the
Johnson intervenors), Dkt. 21; (2) Wisconsin members
of the United States House of Representatives who say
that they are probable candidates to run again in 2022
(the Congressmen), Dkt. 30; and (3) Tony Evers, the
Wisconsin governor, Dkt. 50.1 The court has already
granted the Wisconsin Legislature’s motion to
intervene in the ’512 case. Dkt. 24, at 2–3.
As the court has already discussed with regard to
the Legislature, permissive intervention under Rule
24(b) is appropriate if the motion is timely and the
proposed intervenor “has a claim or defense that shares
with the main action a common question of law or fact.”
Rule 24(b)(1)(B). The decision whether to allow
intervention is committed to the discretion of the court,
Sokaogon Chippewa Cmty. v. Babbitt, 214 F.3d 941,
949 (7th Cir. 2000), but “the court must consider
whether the intervention will unduly delay or prejudice
the adjudication of the original parties’ rights.” Fed. R.
Civ. P. 24(b)(3); see also Planned Parenthood of

1

All docket citations are to entries in Case No. 21-cv-512 unless
otherwise noted.

App. 4
Wisconsin, Inc. v. Kaul, 942 F.3d 793, 803 (7th Cir.
2019).
The Johnson intervenors’ proposed complaint
shares questions of law and fact with the Hunter
plaintiffs’ complaint because they raise virtually
identical claims regarding legislative and congressional
malapportionment. That itself isn’t dispositive because
every Wisconsin voter who lives in one of the
now-overpopulated districts holds the same interest as
the Hunter plaintiffs. But the Johnson intervenors’
motion to intervene is timely, unopposed, and they
have an additional interest that militates in favor of
their intervention: they’ve filed a petition for original
action in the Wisconsin Supreme Court and they seek
a stay of this federal action pending resolution by
either the state legislative process or court proceedings.
Johnson v. Wisconsin Elections Comm’n, No.
2021AP1450; see also Dkt. 21-2 (proposed motion to
stay). The Johnson intervenors pledge to work within
whatever schedule the court adopts, so the court sees
no disadvantage to the other parties. The court will
grant the Johnson intervenors’ motion to intervene.
The Congressmen’s motion to intervene is also
timely, but unlike the Johnson intervenors’ motion, it
is opposed. The Hunter plaintiffs argue that the
Congressmen do not have any special entitlement to
control the drawing of their districts. That’s a fair
point, but as the Congressmen point out, other courts
have concluded that incumbents and prospective
candidates have a substantial interest in the
redistricting process. See, e.g., League of Women Voters
of Michigan v. Johnson, 902 F.3d 572, 579 (6th Cir.

App. 5
2018) (reversing denial of permissive intervention for
members of Congress, stating that “the contours of the
maps affect the Congressmen directly and substantially
by determining which constituents the Congressmen
must court for votes and represent in the legislature.”);
Baldus v. Members of Wisconsin Gov’t Accountability
Bd., No. 11-CV-562, 2011 WL 5834275, at *2 (E.D. Wis.
Nov. 21, 2011) (“intervenors are much more likely to
run for congressional election and thus have a
substantial interest in establishing the boundaries of
their congressional districts”).
The Hunter plaintiffs attempt to distinguish Baldus
and the Michigan case because those involved
challenges to already-drawn maps as opposed to the
required decennial redistricting at issue in this case.
The Hunter plaintiffs say that representatives elected
in 2020 would know their districts could be redrawn
before the 2022 election. The court is not persuaded
that this distinction is material: in each of these
scenarios a legislator faces potential revisions to his or
her district boundaries before the next election. And as
the Hunter plaintiffs concede, redistricting courts may
consider a proposed map’s treatment of incumbents.
Bush v. Vera, 517 U.S. 952, 964 (1996) (“And we have
recognized incumbency protection, at least in the
limited form of avoiding contests between incumbents,
as a legitimate state goal.” (internal quotation marks
omitted)). The last time a federal panel considered
congressional redistricting—following the 2000
census—the court allowed members of Congress to
intervene, citing Bush. Arrington v. Elections Bd., No.
01-CV-121, slip op. at 4 (E.D. Wis. Feb. 13, 2002).

App. 6
Based on these authorities, permissive intervention is
appropriate for the Congressmen.
Briefing has not been completed on Governor
Evers’s motion to intervene, but given the addition of
the other intervenors, particularly the legislature,
there is no principled reason to deny Evers’s motion.
Evers can make the same case for intervention as the
Legislature, with whom he shares responsibility for
enacting a state law establishing new districts in light
of the 2020 Census.2 The court will grant Evers’s
motion for intervention.
Now that that court has granted these motions to
intervene, the existing parties represent the spectrum
of legitimate interests in Wisconsin’s decennial
redistricting. This case is already complicated,
especially in light of the time available to resolve it. So
any further requests to intervene will require a
particularly compelling showing.
B. Proposed amended complaint in Case No.
21-cv-534
The BLOC plaintiffs have filed a proposed amended
complaint adding a claim under Section 2 of the Voting
Rights Act, 52 U.S.C. § 10301, and eight individual
plaintiffs who bring that claim, alleging that they live
in Wisconsin Assembly districts that have been racially
2

Evers has taken the initiative to establish a “People’s Maps
Commission,” to produce district maps that he is apparently
prepared to support. Executive Order No. 66, Relating to Creating
the People’s Maps Commission (Jan. 27, 2020),
https://evers.wi.gov/Documents/EO/EO066-PeoplesMapsCommission
.pdf.

App. 7
gerrymandered. Dkt. 22-1 in the ’534 case. They
acknowledge that leave of court is required because
they seek to add new plaintiffs. Williams v. United
States Postal Serv., 873 F.2d 1069, 1072 n.2 (7th Cir.
1989). They note that they contacted the Elections
Commission defendants (the only defendants of record
at this point in that case) and that defendants do not
oppose the motion. Dkt. 22 in the ’534 case, at 4.
Leave to amend should be freely given when justice
so requires. Id. at 1072; see also Fed. R. Civ. P. 15(a)(2).
The court will grant the BLOC plaintiffs leave to
amend the complaint. The amendment expands the
substantive scope of the case. But their request comes
early in the proceedings, and the Voting Rights Act
claim involves race-based districting issues that are
integral to the drawing of statewide maps. Including
those claims in this case would be more efficient than
entertaining them in a separate case.
C. Consolidation
The court has already expressed its inclination to
consolidate the two cases, and the parties were given a
chance to state their positions on consolidation. Dkt.
24, at 3. The court extended this deadline after the
BLOC plaintiffs sought to amend their complaint. Dkt.
46. Even after this extension, no party opposes
consolidation. The court concludes that it is
appropriate to consolidate the two actions for all
purposes, to provide the most efficient resolution of the
related claims raised by the parties in the two cases.
The Legislature has filed a motion to intervene in
the ’534 case, Dkt. 10 in that case. Because the court is

App. 8
consolidating the two cases, the Legislature’s motion
will be denied as moot, with the understanding that all
the parties are now full participants in both cases.
D. Motions to dismiss
The Legislature has moved to dismiss the ’512 case,
contending that the lawsuit is not ripe and that the
Hunter plaintiffs lack standing; it says that the Hunter
plaintiffs’ injuries are purely speculative because the
legislative redistricting process has not yet had a
chance to fail. Dkt. 9-2. In making these arguments the
Legislature relies heavily on Growe v. Emison, a case
in which the Supreme Court held that a federal
three-judge panel had erred in not deferring to the
Minnesota courts’ redistricting efforts and by enjoining
the state courts from implementing their own plans.
507 U.S. 25, 37 (1993) (“What occurred here was not a
last-minute federal- court rescue of the Minnesota
electoral process, but a race to beat the [state courts’]
Special Redistricting Panel to the finish line.”). The
Congressmen filed a similar proposed motion with their
motion to intervene, Dkt. 30-2, and the Johnson
intervenors filed a similar motion to stay proceedings
along with their motion for intervention, Dkt. 21-2.
This court understands the state government’s
primacy in redistricting its legislative and
congressional maps. Id. at 34 (“‘We say once again
what has been said on many occasions:
reapportionment is primarily the duty and
responsibility of the State through its legislature or
other body, rather than of a federal court.’” (quoting
Chapman v. Meier,420 U.S. 1, 27 (1975))). But the
Growe Court did not conclude that the federal case was

App. 9
unripe or that the plaintiffs lacked standing. And this
panel is not impeding or superseding any concurrent
state redistricting process, steps that that might run
afoul of Growe.
This court will follow the approach taken by the
federal panel handling Wisconsin redistricting after the
2000 census, Arrington v. Elections Bd., 173 F. Supp.
2d 856 (E.D. Wis. 2001). That panel considered the
same ripeness and standing concerns at issue here and
concluded that the malapportionment complaint
presented a case or controversy that the court should
retain. Id. at 860–67. In particular, the panel concluded
that plaintiffs properly alleged a sufficient injury by
stating that their votes would be diluted by
unconstitutional maps. Id. at 862–64. To avoid
interfering with state processes, the panel concluded
that it was appropriate to stay proceedings “until the
appropriate state bodies have attempted—and
failed—to do so on their own.” Id. at 867.
The motions to dismiss have not been fully briefed,
but the court already has three briefs advocating for
dismissal or stay, by the Legislature, Dkt. 9-3, the
Congressmen, Dkt. 30-3, and the Johnson intervenors,
Dkt. 21-3. These parties argue that the panel should
forestall from any action until the state court system
hears the case. But there is yet no indication that the
state courts will entertain redistricting in the face of an
impasse between the legislature and the governor.
Federal panels—not state courts—have intervened in
the last three redistricting cycles in which Wisconsin
has had a divided government. See Baumgart v.
Wendelberger, Nos. 01-C-0121, 02-C-0366, 2002 WL

App. 10
34127471 (E.D. Wis. May 30, 2002); Prosser v. Elections
Bd., 793 F. Supp. 859 (W.D. Wis. 1992); Wisconsin
State AFL-CIO v. Elections Bd., 543 F. Supp. 630 (E.D.
Wis. 1982). Given this historical pattern, and the
urgent requirement of prompt action, the panel will
deny the Legislature’s motion to dismiss. The court and
the parties must prepare now to resolve the
redistricting dispute, should the state fail to establish
new maps in time for the 2022 elections.3
The motions for an indefinite stay will be denied,
but the issue of a more limited stay will be considered
at the upcoming status conference. See Dkt. 58. The
court is inclined to follow the Arrington approach by
imposing a limited stay to give the legislative process,
and perhaps the state courts, the first opportunity to
enact new maps. But the court will set a schedule that
will allow for the timely resolution of the case should
the state process languish or fail. The parties’ joint
submission on the schedule, Dkt. 54, was unhelpful,
but the court will take the parties’ input on the
schedule, given this general framework, at the status
conference.

3

The movants contend that the current redistricting cycle will
diverge from the historical pattern because the Johnson
intervenors have filed a petition for original action in the
Wisconsin Supreme Court. If the Wisconsin Supreme Court grants
the petition, the parties should inform the court and the court will
consider the Supreme Court’s action in setting the schedule.

App. 11
ORDER
IT IS ORDERED that:
1. The motion to intervene filed by Billie Johnson,
Eric O’Keefe, Ed Perkins, and Ronald Zahn, Dkt.
21 in Case No. 21-cv-512, is GRANTED.
2. The motion to intervene filed by Scott
Fitzgerald, Mike Gallagher, Glenn Grothman,
Bryan Steil, and Tom Tiffany, Dkt. 30 in Case
No. 21-cv-512, is GRANTED.
3. The motion to intervene filed by Tony Evers,
Dkt. 50 in Case No. 21-cv-512, is GRANTED.
4. The BLOC plaintiffs’ motion for leave to amend
their complaint, Dkt. 22 in Case No. 21-cv-534,
is GRANTED.
5. Case No. 21-cv-534 is CONSOLIDATED with
Case No. 21-cv-512 for all purposes. Going
forward, all filings for either case should be filed
in Case No. 21-cv-512.
6. The Legislature’s motion to intervene in Case
No. 21-cv-534, Dkt. 10 in the ’534 case, is
DENIED as moot.
7. The Legislature’s motions to dismiss, Dkt. 9-2 in
Case No. 21-cv-512 and Dkt. 11-2 in Case No.
21-cv-534, are DENIED.
8. The motion to dismiss filed by Scott Fitzgerald,
Mike Gallagher, Glenn Grothman, Bryan Steil,
and Tom Tiffany, Dkt. 30-2 in Case No.
21-cv-512, is DENIED.

App. 12
9. The motion to stay filed by Billie Johnson, Eric
O’Keefe, Ed Perkins, and Ronald Zahn, Dkt.
21-2 in Case No. 21-cv-512, is DENIED.
Entered September 16, 2021.
BY THE COURT:
/s/__________________________
JAMES D. PETERSON
District Judge
/s/__________________________
AMY J. ST. EVE
Circuit Judge
/s/__________________________
EDMOND E. CHANG
District Judge

App. 13

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF WISCONSIN
Case Nos. 21-cv-512-jdp-ajs-eec &
21-cv-534-jdp-ajs-eec
[Filed: September 21, 2021]
_________________________________________
LISA HUNTER, JACOB ZABEL,
JENNIFER OH, JOHN PERSA,
GERALDINE SCHERTZ, and
KATHLEEN QUALHEIM,
Plaintiffs,
and
BILLIE JOHNSON, ERIC O’KEEFE,
ED PERKINS, and RONALD ZAHN,
Intervenor-Plaintiffs,
v.
MARGE BOSTELMANN,
JULIE M. GLANCEY, ANN S. JACOBS,
DEAN KNUDSON,
ROBERT F. SPINDELL, JR.,
and MARK L. THOMSEN, in their official
capacities as members of the
Wisconsin Elections Commission,
Defendants,
and

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 14
WISCONSIN LEGISLATURE,
Intervenor-Defendant,
and

)
)
)
)
CONGRESSMEN GLENN GROTHMAN,
)
MIKE GALLAGHER, BRYAN STEIL,
)
TOM TIFFANY, and SCOTT FITZGERALD, )
Intervenor-Defendants,
)
)
and
)
)
GOVERNOR TONY EVERS,
)
Intervenor-Defendant.
)
_________________________________________ )
_________________________________________
BLACK LEADERS ORGANIZING
)
FOR COMMUNITIES,
)
VOCES DE LA FRONTERA,
)
the LEAGUE OF WOMEN VOTERS
)
OF WISCONSIN, CINDY FALLONA,
)
LAUREN STEPHENSON, and
)
REBECCA ALWIN,
)
Plaintiffs,
)
v.
)
)
MARGE BOSTELMANN,
)
JULIE M. GLANCEY,
)
ANN S. JACOBS, DEAN KNUDSON,
)
ROBERT F. SPINDELL, JR., and
)
MARK L. THOMSEN, in their official
)
capacities as members of the
)
Wisconsin Elections Commission, and
)
MEAGAN WOLFE, in her official capacity )
as the administrator of the
)

App. 15
Wisconsin Elections Commission,
)
Defendants.
)
_________________________________________ )
ORDER
The court held a video status conference on
September 21, 2021, to gather information needed to
set the case schedule. All the parties appeared by
counsel, as did the recent proposed intervenors.
The court recognizes that responsibility for drawing
legislative and congressional maps falls primarily to
the states. But the time available for redistricting is
unusually compressed during this decennial cycle
because of the late release of the 2020 Census data,
and the problem is particularly acute in Wisconsin
because its primary election date has been moved up to
August. So previous federal redistricting cases may not
be useful scheduling prototypes. In Branch v. Smith,
538 U.S. 254, 260–62 (2003), the Supreme Court
approved the use of the earlier candidate-qualification
deadline (rather than the election date itself) to
establish a deadline by which the state had to establish
its maps to forestall federal adjudication. Based on
information from the defendant Wisconsin Election
Commission, March 1, 2022, is the date by which maps
must be available to the Commission if it is to
effectively administer the 2022 elections. Should it be
necessary for this court to adjudicate Wisconsin’s maps,
a trial of the issues would have to be complete by
January 28, 2022, to give the court time to consider the
evidence, make the necessary factual findings, and
issue a reasoned decision.

App. 16
Accordingly, as ordered during the status
conference, the parties have until September 28, 2021,
to confer and submit a joint proposed discovery plan
and pretrial schedule on the assumption that trial will
be completed by January 28, 2022, with trial briefs due
a week before the start of trial. The court fully expects
the parties to cooperate and submit a joint proposal,
but the parties may submit alternatives on points of
unresolvable disagreement.
Establishing the trial-completion date and setting
a corresponding pretrial schedule does not mean that
this court will inevitably adjudicate Wisconsin’s maps.
If the State enacts maps by March 1, 2022, the court
may be able to refrain from issuing a judgment in this
case. And there may be other circumstances that affect
the case schedule. For example, if the State were to
enact legislation that moves the nomination-petition
circulation deadlines, and the related deadlines, later
into 2022, thus relieving some of the urgency the
Commission now faces, then the Court could consider
alternative trial dates. Given these contingencies, the
court will allow a party to propose an alternative
schedule with a different trial date if the party
disagrees with the Commission’s March 1 deadline.
Any alternative schedule must include the reasons for
the party’s disagreement with the Commission’s
deadline. And to be clear, submitting such an
alternative proposal does not relieve the party of its
obligation to cooperate in preparing the plan for the
January trial.

App. 17
Entered September 21, 2021.
BY THE COURT:
/s/ ________________________
JAMES D. PETERSON
District Judge
/s/ ________________________
AMY J. ST. EVE
Circuit Judge
/s/ ________________________
EDMOND E. CHANG
District Judge

App. 18

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF WISCONSIN
Civil Action No. 21-cv-512
Three-Judge Court Requested
[Filed: August 13, 2021]
__________________________________________
LISA HUNTER; JACOB ZABEL;
)
JENNIFER OH; JOHN PERSA;
)
GERALDINE SCHERTZ; and
)
KATHLEEN QUALHEIM,
)
)
Plaintiffs,
)
)
v.
)
)
MARGE BOSTELMANN,
)
JULIE M. GLANCEY,
)
ANN S. JACOBS, DEAN KNUDSON,
)
ROBERT F. SPINDELL, JR., and
)
MARK L. THOMSEN, in their official
)
capacities as members of the
)
Wisconsin Elections Commission,
)
)
Defendants.
)
__________________________________________

App. 19
COMPLAINT FOR DECLARATORY AND
INJUNCTIVE RELIEF
Plaintiffs LISA HUNTER, JACOB ZABEL,
JENNIFER OH, JOHN PERSA, GERALDINE
SCHERTZ, and KATHLEEN QUAHLEIM, by and
through their undersigned counsel, file this Complaint
for Declaratory and Injunctive Relief against
Defendants MARGE BOSTELMANN, JULIE M.
GLANCEY, ANN S. JACOBS, DEAN KNUDSON,
ROBERT F. SPINDELL, JR., and MARK L.
THOMSEN, in their official capacities as members of
the Wisconsin Elections Commission, and allege as
follows:
NATURE OF THE ACTION
1. This is an action challenging Wisconsin’s current
legislative and congressional districts, which are
unconstitutionally malapportioned. Plaintiffs ask this
Court to declare Wisconsin’s current legislative and
congressional district plans unconstitutional; enjoin
Defendants from using the current district plans in any
future election; and implement new legislative and
congressional district plans that adhere to the
constitutional requirement of one- person, one-vote
should the Legislature and the Governor fail to do so.
2. On August 12, 2021, the U.S. Secretary of
Commerce delivered census-block results of the 2020
Census to Wisconsin’s Governor and legislative leaders.
These data confirm the inevitable reality that
population shifts that occurred during the last decade
have rendered Wisconsin’s state legislative and
congressional districts unconstitutionally

App. 20
malapportioned. See Arrington v. Elections Bd., 173 F.
Supp. 2d 856, 860 (E.D. Wis. 2001) (three-judge court)
(explaining that “existing apportionment schemes
become instantly unconstitutional upon the release of
new decennial census data” (internal quotation marks
omitted)).
3. Specifically, the current district configurations
of Wisconsin’s State Assembly and State Senate, Wis.
Stat. §§ 4.01-4.99 (State Assembly districts), 4.009
(State Senate districts), violate the Fourteenth
Amendment to the U.S. Constitution, and the current
configuration of Wisconsin’s congressional districts,
Wis. Stat. §§ 3.11-3.18, violates Article I, Section 2 of
the U.S. Constitution. Because they are
unconstitutional, the current legislative and
congressional district plans cannot be used in any
upcoming election, including the 2022 election.
4. Moreover, delays in the creation of new
legislative and congressional plans threaten to violate
Plaintiffs’ right to associate under the First and
Fourteenth Amendments to the U.S. Constitution.
5. In Wisconsin, legislative and congressional
district plans ordinarily are enacted through
legislation, which requires the consent of both
legislative chambers and the Governor (unless both
legislative chambers override the Governor’s veto by a
two-third vote). See State ex rel. Reynolds v.
Zimmerman, 22 Wis. 2d 544, 553-59, 126 N.W.2d 551,
557-59 (1964); Wis. Const. art. V, § 10(2)(a).
6. There is no reasonable prospect that Wisconsin’s
political branches will reach consensus to enact lawful

App. 21
legislative and congressional district plans in time to be
used in the upcoming 2022 election. Governor Tony
Evers is a Democrat, and the State Assembly and State
Senate are controlled by Republicans (though they lack
veto-proof majorities). In the last four decades, each
time Wisconsin’s political branches were split along
partisan lines, federal judicial intervention was
necessary to implement new state legislative plans.
This history of frequent impasse led the Wisconsin
Supreme Court to observe “the reality that redistricting
is now almost always resolved through litigation rather
than legislation.” Jensen v. Wis. Elections Bd., 2002 WI
13, ¶ 10, 249 Wis. 2d 706, 713, 639 N.W.2d 537, 540
(2002). If anything, in the wake of the 2018 and 2020
elections, the hyper-partisan divisions have only gotten
worse, leading to a “very real possibility” that
Wisconsin’s political branches will fail to reach
consensus on new legislative and congressional plans.
Arrington, 173 F. Supp. 2d at 864.
7. Given the high likelihood of impasse, this Court
should prepare itself to intervene to protect the
constitutional rights of Plaintiffs and voters across this
State. While there is still time for the Legislature and
Governor to enact new plans, this Court should assume
jurisdiction now and establish a schedule that will
enable the Court to adopt its own plans in the
near-certain event that the political branches fail
timely to do so.
8. This action “challeng[es] the constitutionality of
the apportionment of congressional districts or the
apportionment of any statewide legislative body.” 28
U.S.C. § 2284(a). Accordingly, a three-judge district

App. 22
court “shall be convened” for this case. Id. Plaintiffs
respectfully request that this Court notify the Chief
Judge of the U.S. Court of Appeals for the Seventh
Circuit of this action and request that two judges be
added to this Court for the purpose of adjudicating the
merits of this dispute. Id. § 2284(b)(1).
JURISDICTION AND VENUE
9. Plaintiffs bring this action under 42 U.S.C.
§ 1983 to redress the deprivation, under color of state
law, of rights secured by the United States
Constitution. This Court has original jurisdiction over
the subject matter of this action pursuant to 28 U.S.C.
§§ 1331 and 1343 because the matters in controversy
arise under the Constitution and laws of the United
States and involve the assertion of a deprivation, under
color of state law, of a right under the Constitution of
the United States. This Court has the authority to
enter a declaratory judgment pursuant to 28 U.S.C.
§§ 2201 and 2202, and authority to enter injunctive
relief under Federal Rule of Civil Procedure 65.
10.
This Court has personal jurisdiction over
Defendants, who are sued in their official capacities
and reside within this State.
11.
Venue is proper in the Western District of
Wisconsin because a substantial part of the events that
give rise to Plaintiffs’ claims have occurred and will
occur in this District, 28 U.S.C. § 1391(b)(2), and
because all Defendants, who are sued in their official
capacities, have their office in this District, id.
§ 1391(b)(1).

App. 23
12.
A three-judge district court has jurisdiction to
adjudicate this dispute because Plaintiffs “challeng[e]
the constitutionality of the apportionment of
[Wisconsin’s] congressional districts or the
apportionment of [Wisconsin’s] statewide legislative
body.” 28 U.S.C. § 2284(a).
PARTIES
13.
Plaintiffs are citizens of the United States
and are registered to vote in Wisconsin. Plaintiffs
intend to advocate and vote for Democratic candidates
in the upcoming 2022 primary and general elections.
Plaintiffs reside in the following congressional and
legislative districts.
Plaintiff County of CongressState
State
Residence ional
Senate Assembly
District District District

Lisa
Hunter

Dane

2

26

77

Jacob
Zabel

Dane

2

26

76

Jennifer
Oh

Dane

2

26

78

John
Persa

Waukesha

5

5

13

8

2

6

Geraldine Shawano
Schertz

App. 24
Kathleen Shawano
Qualheim

8

2

6

14.
As the tables provided below demonstrate,
Plaintiffs reside in districts that are overpopulated
relative to other districts in the state. Plaintiffs
Hunter, Zabel, and Oh’s congressional, State Senate,
and State Assembly districts are all overpopulated.
Plaintiff Persa’s State Senate and State Assembly
districts (but not his congressional district) are
overpopulated. And Plaintiff Schertz and Qualheim’s
congressional and State Senate districts (but not their
State Assembly district) are overpopulated. If the 2022
election is held pursuant to the maps that are currently
in place, then Plaintiffs will be deprived of their right
to cast an equal vote, as guaranteed to them by the
U.S. Constitution.
15.
Defendants Marge Bostelmann, Julie M.
Glancey, Ann S. Jacobs, Dean Knudson, Robert F.
Spindell, Jr., and Mark L. Thomsen are the six
Commissioners of the Wisconsin Elections Commission
(“WEC”). They are named as defendants in their official
capacities only. The WEC is the governmental body
that administers, enforces, and implements Wisconsin’s
laws “relating to elections and election campaigns,
other than laws relating to campaign financing.” Wis.
Stat. § 5.05(1). The WEC is responsible for
implementing redistricting plans, whether enacted by
Wisconsin’s political branches or by a court. See id.
§§ 3.11-3.18 (setting forth current congressional district
boundaries); 4.009 (setting forth current State Senate
districts); 4.01-4.99 (setting forth current State

App. 25
Assembly districts); see also Whitford v. Gill, No.
15-cv-421-BBC, 2017 WL 383360, at *3 (W.D. Wis. Jan.
27, 2017) (three-judge court) (enjoining members of the
WEC from using existing Assembly map), vacated on
other grounds by Gill v. Whitford, 138 S. Ct. 1916
(2018); Baldus v. Members of Wis. Gov’t Accountability
Bd., 862 F. Supp. 2d 860, 863 (E.D. Wis. 2012)
(ordering members of the WEC’s predecessor, the
Government Accountability Board (“GAB”), to
implement the court’s alterations to the existing State
Assembly district plan); Baumgart v. Wendelberger,
Nos. 01-C-121, 02-C-366, 2002 WL 34127471, at *8
(E.D. Wis. May 30, 2002) (enjoining members of the
Wisconsin Elections Board—the GAB’s
predecessor—from using existing legislative plan and
ordering use of court-drawn plan due to the
Legislature’s failure to enact new plans following the
2000 Census).
FACTUAL ALLEGATIONS
I. Wisconsin’s
current
legislative
and
congressional districts were drawn using 2010
Census data.
16.
On August 9, 2011, over a decade ago,
Governor Scott Walker signed legislation creating new
state legislative and congressional districts, which were
drawn using then-recently published 2010 Census
data.
17.
According to the 2010 Census, Wisconsin had
a population of 5,686,986. Accordingly, a decade ago,
the ideal population for each of Wisconsin’s eight
congressional districts (i.e., the State’s total population

App. 26
divided by the number of districts) was 710,873
persons. Similarly, the ideal population for each State
Senate district was 172,333 persons, and the ideal
population for each State Assembly district was 57,444
persons.
18.
According to 2010 Census data, the new
congressional plan had a maximum deviation (i.e., the
difference between the most populated district and
least populated district) of exactly one person: six
districts had a population of 710,873, and two districts
had a population of 710,874. The new State Assembly
plan had a deviation of 438 persons (.8% of the ideal
district population), and the new State Senate plan had
a deviation of 1,076 persons (.6% of the ideal district
population).
19.
In April 2012, a federal court made slight
adjustments to Assembly Districts 8 and 9. See Baldus,
862 F. Supp. 2d at 863. Otherwise, the legislative and
congressional plans passed in August 2011 have been
used in every election cycle since 2012.
II. The 2020 Census is now complete.
20.
In 2020, the U.S. Census Bureau conducted
the decennial census required by Article I, Section 2 of
the U.S. Constitution. On April 26, 2021, the U.S.
Secretary of Commerce delivered the results of the
2020 Census to the President.
21.
The results of the 2020 Census report that
Wisconsin’s resident population as of April 2020 is
5,893,718. This is a significant increase from a decade
ago, when the 2010 Census reported a population of

App. 27
5,686,986. Wisconsin will again be apportioned eight
congressional districts for the next decade.
22.
According to the 2020 Census results, the
ideal population for each of Wisconsin’s eight
congressional districts (i.e., the State’s total population
divided by the number of districts) is 736,715; the ideal
population for Wisconsin’s 99 State Assembly districts
is 59,533; and the ideal population for Wisconsin’s 33
State Senate districts is 178,598.
III.

As a result of significant population shifts
in the past decade and the publication of
the 2020 Census results, Wisconsin’s
legislative and congressional districts are
unconstitutionally malapportioned.

23.
In the past decade, Wisconsin’s population
has shifted significantly. Because the 2020 Census has
now been completed, the 2010 population data used to
draw Wisconsin’s current legislative and congressional
districts are obsolete, and any prior justifications for
the existing maps’ deviations from population equality
are inapplicable.
24.
On August 12, 2021, the U.S. Census Bureau
delivered to Wisconsin its redistricting data file in a
legacy format, which the State may use to tabulate the
new population of each political subdivision. These
data are commonly referred to as “P.L. 94-171 data,” a
reference to the legislation enacting this process, and
are typically delivered no later than April of the year
following the Census. See Pub. L. No. 94-171, 89 Stat.
1023 (1975).

App. 28
25.
These data make clear that significant
population shifts have occurred in Wisconsin since
2010, skewing the current legislative and congressional
districts far from population equality.
26.
The table below, generated from the P.L.
94-171 data file provided by the Census Bureau on
August 12, 2021, shows how the populations of each of
Wisconsin’s congressional districts have shifted
between 2010 and 2020. For each district, the “2010
Population” column represents the district’s 2010
population according to the 2010 Census, and the “2020
Population” column indicates the district’s 2020
population according to the P.L. 94-171 data. The
“Shift” column represents the shift in population
between 2010 and 2020. The “Deviation from Ideal
2020 Population” column shows how far the 2020
population of each district strays from the ideal 2020
congressional district population. And the “Percent
Deviation” column shows that deviation as a
percentage of the ideal 2020 district population.

2010
Population
710,874
710,874
710,873
710,873
710,873
710,873
710,873
710,873

District

1
2
3
4
5
6
7
8

751,967

732,582

727,774

735,571

695,395

733,584

789,393

727,452

2020
Population

+41,094

+21,709

+16,901

+24,698

-15,478

+22,711

+78,519

+16,578

Shift

+15,253

-4,132

-8,940

-1,143

-41,319

-3,130

+52,679

-9,262

Deviation from
Ideal 2020
Population

0.0207

-0.56%

-1.21%

-0.16%

-5.6%

-0.42%

0.0715%

-1.26%

Percent
Deviation

App. 29

App. 30
27.
The table above indicates that population
shifts since 2010 have rendered Wisconsin’s First,
Third, Fourth, Fifth, Sixth, and Seventh Congressional
Districts underpopulated, and its Second and Eighth
Congressional Districts significantly overpopulated.
According to these figures, the maximum deviation
among Wisconsin’s congressional districts increased
from 0 to nearly 13 percent between 2010 and 2020.
28.
The populations of each of Wisconsin’s state
legislative districts have similarly shifted in the past
decade. Exhibit A to this Complaint provides the same
table showing, for each State Assembly district, the
2010 population, 2020 population, population shift
between 2010 and 2020, deviation from the district’s
current ideal population, and percent deviation from
the district’s current ideal population. Exhibit B to
this Complaint provides the same information for each
State Senate district.
29.
According to Exhibit A, the maximum
deviation among State Assembly districts increased
from .8 percent to 32 percent between 2010 and 2020.
And according to Exhibit B, the maximum deviation
among State Senate districts increased from .6 percent
to over 22 percent between 2010 and 2020.
30.
In light of these population shifts,
Wisconsin’s existing legislative and congressional
district configurations are unconstitutionally
malapportioned. If used in any future election, these
district configurations would unconstitutionally dilute
the strength of Plaintiffs’ votes in legislative and
congressional elections because Plaintiffs live in

App. 31
districts with populations that are significantly larger
than those in which other voters live.
IV.

Wisconsin’s political branches will likely
fail to enact lawful legislative or
congressional district maps in time for the
next election.

31.
In Wisconsin, legislative and congressional
district plans are enacted through legislation, which
must pass both chambers of the Legislature and be
signed by the Governor (unless the Legislature
overrides the Governor’s veto). See State ex rel.
Reynolds v. Zimmerman, 22 Wis. 2d 544, 553-59, 126
N.W.2d 551, 557-59 (1964). Currently, both chambers
of Wisconsin’s Legislature are controlled by
Republicans, and the Governor is a Democrat. The
Republican control of the Legislature is not large
enough to override a gubernatorial veto. The partisan
division among Wisconsin’s political branches makes it
extremely unlikely that they will pass lawful legislative
or congressional redistricting plans in time to be
implemented during the upcoming 2022 election.
32.
Except for the 2010 redistricting
cycle—during which Republicans held trifecta control
of Wisconsin’s state government—Wisconsin’s
redistricting process has been rife with partisan
gridlock. In the last four decades, when Republicans
and Democrats controlled competing political branches
of Wisconsin’s government, the parties have been
unable to enact state legislative redistricting plans. As
a result, federal courts were forced to intervene in the
process of redrawing state legislative districting plans
during the 1980, 1990, and 2000 redistricting cycles.

App. 32
33.
Once again, Wisconsin is entering a new
redistricting cycle with political branches divided along
partisan lines. If anything, the partisan differences
among the major parties have only grown since they
last attempted to reach consensus on redistricting
plans. In the two years he has been in office, Governor
Evers has been in nearly constant conflict with the
Republican-controlled Legislature over a broad range
of policies, such as the state’s response to the COVID19 pandemic, election administration, Medicaid
expansion, budget measures, abortion, and professional
licensing, with the Governor using his veto power on
many occasions. When it became clear that
Republicans had failed to obtain a veto-proof majority
in the Legislature in the November 2020 election,
Governor Evers pointed immediately to the fact that he
would retain the “ability to veto [ ] bad district lines
through redistricting.”1 Earlier that year, when
Governor Evers created an independent redistricting
commission meant to produce fair statewide maps,
Republican legislative leadership indicated that they
would ignore the commission’s proposals.2
34.
On August 10, 2021, Governor Evers vetoed
a series of bills passed by the Legislature seeking to
alter the rules regarding applying for, delivering, and
processing of absentee ballots, further illustrating and
confirming the persistent gridlock between the
1

Mitchell Schmidt, GOP Falls Short of Veto-Proof Majorities in
Wisconsin Legislature, Wis. State J. (Nov. 5, 2020),
https://tinyurl.com/wj6m3d98.

2

Scott Bauer, Wisconsin Republicans Dismiss Nonpartisan
Redistricting Plan, Assoc. Press (Jan. 23, 2020),
https://tinyurl.com/7vh569yb.

App. 33
Legislature and Governor Evers, especially on election
issues.3
35.
Moreover, the Census Bureau’s significant
delays in distributing Wisconsin’s population data have
compressed the amount of time during which the
legislative process would normally take place. This
increases the already significant likelihood the political
branches will reach an impasse this cycle and fail to
enact new legislative and congressional district plans,
leaving the existing plans in place for next year’s
election. To avoid such an unconstitutional outcome,
this Court must prepare to intervene to ensure
Plaintiffs’ and other Wisconsinites’ voting strength is
not diluted.
36.
The Wisconsin Constitution requires the
Legislature to draw new legislative lines “[a]t its first
session after each enumeration made by the authority
of the United States.” Wis. Const. art. IV, § 3. The
current legislative session will terminate when the
following session begins in early January 2022. See
Wis. Stat. § 13.02(2) (calling for new annual sessions to
begin “on the first Tuesday after the 8th day of
January in each year”). Wisconsin law does not set a
deadline by which congressional redistricting plans
must be in place. Nonetheless, it is in the interests of
voters, candidates, and Wisconsin’s entire electoral
apparatus that finalized legislative and congressional
districts be put in place as soon as possible, well before
candidates in those districts must begin to collect
3

Scott Bauer, Wisconsin Governor Vetoes GOP Bills to Restrict
Absentees, Assoc. Press (Aug. 10, 2021), https://tinyurl.com/e4he92
sj.

App. 34
signatures on their nomination papers. Potential
candidates cannot make strategic decisions—including,
most importantly, whether to run at all—without
knowing the district boundaries. And voters have a
variety of interests in knowing as soon as possible the
districts in which they reside and will vote, and the
precise contours of those districts. These interests
include deciding which candidates to support and
whether to encourage others to run; holding elected
representatives accountable for their conduct in office;
and advocating for and organizing around candidates
who will share their views in Congress or the
Wisconsin Legislature, including by working together
with other district voters in support of favored
candidates.
37.
Candidates seeking to appear on the ballot
for the 2022 partisan primary election will begin
circulating nomination papers as early as April 15,
2022. Wis. Stat. § 8.15(1). And the deadline to file
nomination papers is June 1, 2022. Id. It is in
everyone’s best interest—voters and candidates
alike—that district boundaries are set well before the
start of the formal nomination process. Delaying the
adoption of new plans even until this deadline will
substantially interfere with Plaintiffs’ ability to
associate with like-minded citizens, educate themselves
on the positions of their would-be representatives, and
advocate for the candidates they prefer. Cf. Anderson
v. Celebrezze, 460 U.S. 780, 787-88 (1983) (“The
[absence] of candidates also burdens voters’ freedom of
association, because an election campaign is an
effective platform for the expression of views on the

App. 35
issues of the day, and a candidate serves as a
rallying-point for like-minded citizens.”).
38.
If this Court is not prepared to act in the
event that the Legislature and Governor fail to enact
new legislative or congressional plans, then the 2022
election will be held using illegal district maps,
depriving Plaintiffs of their constitutional rights.
CLAIMS FOR RELIEF
COUNT I
Violation of the Fourteenth Amendment to the
U.S. Constitution
42 U.S.C. § 1983
Legislative Malapportionment
39.
Plaintiffs reallege and reincorporate by
reference all prior paragraphs of this Complaint and
the paragraphs in the counts below as though fully set
forth herein.
40.
The Fourteenth Amendment to the U.S.
Constitution prohibits a state from “deny[ing] to any
person within its jurisdiction the equal protection of
the laws.” This provision “requires that the seats in
both houses of a bicameral state legislature [ ] be
apportioned on a population basis.” Reynolds v. Sims,
377 U.S. 533, 568 (1964).
41.
In light of the significant population shifts
that have occurred since the 2010 Census, and the
recent publication of the results of the 2020 Census,
the current configurations of Wisconsin’s legislative
districts—which were drawn based on 2010 Census

App. 36
data—are unconstitutionally malapportioned. These
districts are no longer apportioned on a “population
basis.” Instead, they are based on outdated population
data collected more than a decade ago.
42.
Wisconsin’s current state legislative plan
places voters into districts with significantly disparate
populations, causing voters in overpopulated districts,
like Plaintiffs, to experience vote dilution compared to
voters in districts with comparatively smaller
populations.
43.
Any future use of Wisconsin’s current
legislative plan would violate Plaintiffs’ constitutional
right to cast an equal vote.
COUNT II
Violation of Article I, Section 2 of the U.S. Constitution
42 U.S.C. § 1983
Congressional Malapportionment
44.
Plaintiffs reallege and reincorporate by
reference all prior paragraphs of this Complaint and
the paragraphs in the count below as though fully set
forth herein.
45.
Article I, Section 2 of the U.S. Constitution
requires “that when qualified voters elect members of
Congress each vote be given as much weight as any
other vote.” Wesberry v. Sanders, 376 U.S. 1, 7 (1964).
This means that congressional districts must “achieve
population equality ‘as nearly as is practicable.’”
Karcher v. Daggett, 462 U.S. 725, 730 (1983) (quoting
Wesberry, 376 U.S. at 7-8).

App. 37
46.
Article I, Section 2 requires an even higher
standard of exact population equality among
congressional districts than what the Fourteenth
Amendment requires of state legislative districts. It
“permits only the limited population variances which
are unavoidable despite a good-faith effort to achieve
absolute equality, or for which justification is shown.”
Karcher, 462 U.S. at 730 (quoting Kirkpatrick v.
Preisler, 394 U.S. 526, 531 (1969)). Any variation from
“absolute population equality” must be narrowly
justified. Id. at 732-33.
47.
As a result of this requirement, when
Wisconsin’s existing congressional plan was enacted in
2010, the deviation in population among districts was
no more than one person. Now, the population
deviation among the current congressional districts is
nearly 94,000 people.
48.
Given the significant population shifts that
have occurred since the 2010 Census, and the recent
publication of the results of the 2020 Census,
Wisconsin’s congressional districts— which were drawn
based on 2010 Census data—are now
unconstitutionally malapportioned. No justification can
be offered for the deviation among the congressional
districts because any existing justification would be
based on outdated 2010 population data.
49.
Any future use of Wisconsin’s current
congressional district plan would violate Plaintiffs’
constitutional right to an undiluted vote.

App. 38
COUNT III
Violation of the First and Fourteenth
Amendments to the U.S. Constitution
42 U.S.C. § 1983
Freedom of Association
50.
Plaintiffs reallege and reincorporate by
reference all prior paragraphs of this Complaint as
though fully set forth herein.
51.
Among other rights, the First Amendment
protects the “freedom of association” from infringement
by the federal government and applies to state
governments pursuant to the Fourteenth Amendment.
See Williams v. Rhodes, 393 U.S. 23, 30-31 (1968)
(citing New York Times Co. v. Sullivan, 376 U.S. 254,
276-77 (1964)).
52.
Impeding candidates’ ability to run for
political office—and, consequently, Plaintiffs’ ability to
assess candidate qualifications and positions, organize
and advocate for preferred candidates, and associate
with like-minded voters—infringes on Plaintiffs’ First
Amendment right to association. See, e.g., Anderson,
460 U.S. at 787-88 & n.8.
53.
Given the delay in publication of the 2020
Census data and the near-certain deadlock among the
political branches in adopting new legislative and
congressional district plans, it is significantly unlikely
that the legislative process will timely yield new plans.
This would deprive Plaintiffs of the ability to associate
with others from the same lawfully apportioned
legislative and congressional districts, and, therefore,

App. 39
is likely to significantly, if not severely, burden
Plaintiffs’ First Amendment right to association.
54.
Defendants can assert no legitimate, let alone
compelling, interest that justifies this burden.
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs respectfully request that
this Court:
a. Notify the Chief Judge of the U.S. Court of
Appeals for the Seventh Circuit of this action
and request that two other judges be designated
to form a three-judge district court, 28 U.S.C.
§ 2284(b)(1);
b. Declare that the current configurations of
Wisconsin’s State Assembly and State Senate
districts, Wis. Stat. §§ 4.01-4.99, 4.009, violate
the First and Fourteenth Amendments to the
United States Constitution;
c. Declare that the current configuration of
Wisconsin’s congressional districts, Wis. Stat.
§§ 3.11-3.18, violates Article I, Section 2 of, and
the First and Fourteenth Amendments to the
United States Constitution;
d. Permanently enjoin Defendants, their respective
agents, officers, employees, and successors, and
all persons acting in concert with each or any of
them, from implementing, enforcing, or giving
any effect to Wisconsin’s current legislative or
congressional districting plans;

App. 40
e. Establish a schedule that will enable the Court
to adopt and implement new legislative and
congressional district plans by a date certain
should the political branches fail to enact such
plans by that time;
f. Implement a new legislative district plan that
complies with the Fourteenth Amendment to the
U.S. Constitution, and a new congressional
district plan that complies with Article I, Section
2 of the U.S. Constitution;
g. Award Plaintiffs their costs, disbursements, and
reasonable attorneys’ fees incurred in bringing
this action, pursuant to 42 U.S.C. § 1988 and
other applicable laws; and
h. Grant such other and further relief as the Court
deems just and proper.

App. 41
Dated: August 13, 2021

Charles G. Curtis Jr.
PERKINS COIE LLP
33 East Main Street, Suite 201
Madison, WI 53703-3095
Telephone: (608) 663-5411
Facsimile: (608) 283-4462
CCurtis@perkinscoie.com

Respectfully submitted,
/s/ Aria C. Branch
Marc E. Elias
Aria C. Branch
Daniel C. Osher*
Jacob Shelly*
Christina A. Ford*
PERKINS COIE LLP
700 Thirteenth Street, NW Suite 800
Washington, DC 20005-3960
Telephone: (202) 654-6200
Facsimile: (202) 654-6211
MElias@perkinscoie.com
ABranch@perkinscoie.com
DOsher@perkinscoie.com
JShelly@perkinscoie.com
ChristinaFord@perkinscoie.com
*Motion for Pro Hac Vice Admission Forthcoming
[*** Exhibits A and B omitted for this Appendix***]

App. 42

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF WISCONSIN
Civil Action File No. 3:21-cv-00534-jdp-ajs-eec
[Filed: September 21, 2021]
__________________________________________
BLACK LEADERS ORGANIZING
)
FOR COMMUNITIES,
)
VOCES DE LA FRONTERA,
)
the LEAGUE OF WOMEN VOTERS
)
OF WISCONSIN, CINDY FALLONA,
)
LAUREN STEPHENSON,
)
REBECCA ALWIN, HELEN HARRIS,
)
WOODROW WILSON CAIN, II,
)
NINA CAIN, TRACIE Y. HORTON,
)
PASTOR SEAN TATUM,
)
MELODY MCCURTIS, BARBARA TOLES, )
and EDWARD WADE, JR.,
)
)
Plaintiffs,
)
)
v.
)
)
ROBERT F. SPINDELL, JR.,
)
MARK L. THOMSEN, DEAN KNUDSON, )
ANN S. JACOBS, JULIE M. GLANCEY,
)
MARGE BOSTELMANN, in their official
)
capacity as members of the
)

App. 43
Wisconsin Elections Commission,
MEAGAN WOLFE, in her official capacity
as the Administrator of the
Wisconsin Elections Commission,

)
)
)
)
)
)

Defendants.
__________________________________________
_________________________________________________
FIRST AMENDED COMPLAINT FOR
DECLARATORY AND INJUNCTIVE RELIEF
_________________________________________________
Plaintiffs Black Leaders Organizing for
Communities, Voces de la Frontera, the League of
Women Voters of Wisconsin, Cindy Fallona, Lauren
Stephenson, Rebecca Alwin, Helen Harris, Woodrow
Wilson Cain, II, Nina Cain, Tracie Y. Horton, Pastor
Sean Tatum, Melody McCurtis, Barbara Toles, and
Edward Wade, Jr., bring this First Amended
Complaint for Declaratory and Injunctive Relief
against defendants Robert F. Spindell, Jr., Mark L.
Thomsen, Dean Knudson, Julie Glancey, Ann S.
Jacobs, and Marge Bostelmann, in their official
capacities as members of the Wisconsin Elections
Commission, and against defendant Meagan Wolfe, in
her official capacity as the Administrator of the
Wisconsin Elections Commission, (collectively,
“Defendants”), under 42 U.S.C. § 1983, 52 U.S.C.
§ 10301, and 28 U.S.C. § 2284(a), and state and allege
as follows:

App. 44
INTRODUCTION
Wisconsin’s current state legislative districts were
adopted by the Wisconsin State Legislature and signed
by Wisconsin’s Governor as 2011 Wisconsin Act 43, and
later modified by a federal court in Baldus v. Members
of the Government Accountability Board, 862 F. Supp.
2d 860, 863 (E.D. Wis. 2012). The current districts are
based on state population and demographic data
collected by the U.S. Census Bureau in 2010. On
August 12, 2021, the U.S. Census Bureau released
Wisconsin’s state population data (Public Law 94-171
data) from the 2020 Census. As those data reveal,
Wisconsin gained 199,243 residents in the past decade,
a population shift that has rendered the existing state
legislative districts unequally populated, and therefore
malapportioned under state and federal law. More
specifically, the current state legislative districts
violate the basic democratic tenet of “one person, one
vote,”1 and therefore violate Plaintiffs’ rights under the
Fourteenth Amendment to the U.S. Constitution.
Moreover, the Milwaukee-area State Assembly
districts violate Section 2 of the Voting Rights Act, 52
U.S.C. § 10301, by packing Black voters in six districts
with Black voting age population (“BVAP”) percentages
well in excess of what is needed to provide an equal
opportunity for Black voters to elect their preferred
candidate, and simultaneously cracking other Black
voters from these districts, and placing them instead in
districts that feature a white bloc voting against their
preferred candidates. A seventh majority-BVAP district
1

See Reynolds v. Sims, 377 U.S. 533, 562–64 (1964); See also Baker
v. Carr, 369 U.S. 186, 207-208 (1962).

App. 45
can instead be drawn to provide Black voters with an
equal opportunity to elect their preferred candidates,
and to remedy this unlawful vote dilution.
The malapportionment became actionable in this
Court with the Census Bureau’s release of the 2020
Federal Census count of Wisconsin’s population, and,
with the Public Law 94-171 data now released, it is
clear precisely where population shifts have occurred
within the state. See Arrington v. Elections Bd., 173 F.
Supp. 2d 856, 860 (E.D. Wis. 2001). Indeed, on August
13, 2021, six Wisconsin residents who intend to
advocate and vote for Democratic Party of Wisconsin
candidates in the coming 2022 primary and general
elections filed a complaint in this Court, alleging that
current Wisconsin state legislative districts are
unconstitutionally malapportioned based on the 2020
Census data. See Hunter, et al. v. Bostelmann, et al.,
No. 21-cv-00512 (W.D. Wis.).
Plaintiffs in this action include nonprofit
organizations that have members and constituencies
whose votes are diluted because they live in districts
that are now overpopulated in violation of their
constitutional rights, as well as individual voters who
suffer the same harm. Plaintiffs therefore seek a
declaratory judgment that the current state legislative
districts violate the United States Constitution; a
permanent injunction barring Defendants from holding
future elections under the current scheme for
Wisconsin State Senate and State Assembly districts;
and an order implementing new state legislative
districts that adhere to the requirements of federal and
state law should the Legislature and Governor fail to

App. 46
adopt such districts through the legislative process.
Plaintiffs also include Black voters whose votes for
Milwaukee-area State Assembly districts are diluted in
violation of Section 2 of the Voting Rights Act, along
with a nonprofit organization with affected
constituents for whom it advocates.
The Wisconsin Constitution requires new legislative
districts to be drawn in light of the U.S. Census
Bureau’s release of 2020 census data, the United States
Constitution requires that those districts be drawn in
a way that corrects the vote dilution that exists in the
current State Assembly plan. The primary duty for
reapportionment rests with the state legislature, with
a new plan to be approved by the governor. State ex
Rel. Reynolds v. Zimmerman, 22 Wis. 2d 544, 556-59,
126 N.W.2d 551 (1964). However, in every past decade
since the 1980s when there has been a partisan divide
among the Senate, the Assembly, and/or the Governor,
there has been a legislative impasse requiring judicial
intervention. See Prosser v. Elections Bd., 793 F. Supp.
859 (W.D. Wis. 1992); Wis. State AFL-CIO v. Elections
Bd., 543 F. Supp. 630 (E.D. Wis. 1982); Baumgart v.
Wendelberger, Nos. 01–C–0121 & 02–C–0366, 2002 WL
34127471 (E.D. Wis. May 30, 2002), amended by 2002
WL 34127473 (E.D. Wis. July 11, 2002). The Senate
and Assembly currently have majorities of elected
Republican representatives, whereas the Governor is a
Democrat.
Since Governor Evers assumed office in January
2019, the Governor and the Legislature have disagreed
on many significant policy issues that appear to fall
along partisan political lines, such as the Governor’s

App. 47
Administration’s orders requiring Wisconsinites to
remain at home and later, use face-coverings, during
the COVID-19 pandemic;2 the appropriate use of
federal aid for COVID relief;3 limiting the authority of
public health entities;4 vaccination requirements by
employers or other entities;5 Department of
Transportation policy;6 and raffle and sweepstakes
laws;7 among others.8 The low likelihood of the
Legislature and the Governor reaching agreement on
a redistricting plan for state legislative districts in the
2

Wis. Legislature v. Palm, 2020 WI 42, 391 Wis. 2d 497, 942
N.W.2d 900, and 2021 Senate Joint Resolution 3 (terminating 2021
Executive Order #104), available at https://docs.legis.wisconsin.gov
/2021/related/enrolled/sjr3.

3

See, e.g., veto messages for 2021 AB232, AB234, AB235, AB236,
AB237, AB238, AB239, AB240, AB241, AB243, and SB183,
available at https://docs.legis.wisconsin.gov/2021/related/veto_me
ssages.
4

See veto messages for 2021 AB1, available
https://docs.legis.wisconsin.gov/2021/related/veto_messages.
5

at

Id.

6

See veto messages for 2019 AB273 and AB284, available at
https://docs.legis.wisconsin.gov/2019/related/veto_messages.

7

See veto messages for 2019 SB292 and SB43, available at
https://docs.legis.wisconsin.gov/2019/related/veto_messages.
8

See veto messages for 2021 SB39 (sports and extracurriculars by
charter school students), and 2021 SB38 (return to offices for state
employees during COVID-19 pandemic), available at
https://docs.legis.wisconsin.gov/2021/related/veto_messages; and
veto messages for 2019 AB4 (tax policy), AB53 (student directory
data definition), AB76 (training hours for nurse aids), and AB179,
AB180, AB182, and AB183 (abortion care policy), available at
https://docs.legis.wisconsin.gov/2019/related/veto_messages.

App. 48
2020 cycle is further reflected in the current
Legislature’s frequent resort to the courts to challenge
executive action in lieu of seeking political compromise.
See, e.g., Wis. Legislature v. Palm, 2020 WI 42, 391
Wis. 2d 497, 942 N.W.2d 900; Wis. Legislature v. Evers,
No. 2020AP608-OA (Wis. Apr. 6, 2020) (attached as
Exhibit 1); Fabick v. Evers, 2021 WI 28 (Legislature
filed a brief as amicus curiae in support of a challenge
to the Governor’s emergency powers); Bartlett v. Evers,
2020 WI 68, 393 Wis. 2d 172, 945 N.W.2d 685
(Legislature filed a brief as amicus curiae in support of
a challenge to the Governor’s veto authority). Indeed,
legislative leadership has already retained private
counsel in preparation for redistricting litigation this
year. See Waity v. Vos, No. 21-CV-589 (Dane Co. Cir.
Ct. Apr. 29, 2021) (holding void ab initio contracts for
redistricting litigation counsel signed in December
2020) (copy attached as Exhibit 2), petition for bypass
granted sub nom Waity v. LeMahieu, No. 2021-AP-802
(Wis. July 15, 2021) (attached as Exhibit 3), and
decision stayed sub nom Waity v. LeMahieu, No.
2021-AP-802 (attached as Exhibit 4). The pending
action by Wisconsin residents who support the
Democratic Party and its candidates for elected office,
and the Legislature’s motion to intervene in that case,
as well as the Legislature’s motion to intervene in this
case, further diminishes the chances that the
Legislature and Governor will reach a compromise on
new legislative districts.
Consequently, past practice, the current partisan
divide in Wisconsin’s government, and the pending
action by Democratic voters alleging a
malapportionment in state legislative districts all

App. 49
strongly indicate that legislative impasse over new
state legislative districts will occur, and that once
again the federal court will be required to resolve the
conflict. Indeed, without this Court’s intervention, the
2022 elections will proceed under plans that are not
only malapportioned in violation of the U.S.
Constitution, but pursuant to a State Assembly plan
that violates Section 2 of the Voting Rights Act.
JURISDICTION AND VENUE
1. This Court has subject matter jurisdiction under
28 U.S.C. §§ 1331, 1343(a)(3) and (4), 1357, and 2284 to
hear the claims for legal and equitable relief arising
under the federal constitution and the Voting Rights
Act. It also has general jurisdiction under 28 U.S.C.
§§ 2201 and 2202, the Declaratory Judgments Act, to
grant the declaratory relief requested by Plaintiffs.
2. This action challenges the constitutionality of
the apportionment of Wisconsin’s legislative districts,
found in Chapter 4 of the Wisconsin Statutes and
revised as ordered by the U.S. District Court for the
Eastern District of Wisconsin in Baldus v. Members of
the Wisconsin Government Accountability Board, 849 F.
Supp. 2d 840 (E.D. Wis. 2012) (per curiam) (three-judge
panel). The current state legislative district boundaries
were based on the 2010 census of the state’s
population, now superseded by the 2020 census. This
action likewise challenges the Milwaukee-area State
Assembly districts as violating Section 2 of the Voting
Rights Act, 52 U.S.C. § 10301, by diluting Black voters’
ability to elect the candidates of their choice through
packing and cracking of Black voters across districts.

App. 50
3. 28 U.S.C. § 2284(a) requires that a district court
of three judges hear redistricting cases. In 1982, 1992,
and 2002, three-judge panels convened pursuant to 28
U.S.C. § 2284 resolved complaints like this one,
developing redistricting plans for the state legislature
in the absence of valid plans adopted by the Legislature
and enacted with the Governor’s approval. See Prosser,
793 F. Supp. 859; AFL-CIO, 543 F. Supp. 630;
Baumgart v. Wendelberger, 2002 WL 3412747,
amended by 2002 WL 34127473.
4. This Court has personal jurisdiction over all
Defendants. Defendants Spindell, Thomsen, Knudson,
Glancey, Jacobs, Bostelmann, and Wolfe are state
officials who reside in Wisconsin and perform official
duties in Madison, Wisconsin.
5. Venue is proper in this Court under 28 U.S.C.
§§ 1391(b) and (e). At least two of the defendants
resides in the Western District of Wisconsin, and
Defendants are state officials performing official duties
in Madison, Wisconsin. Members of two Plaintiff
organizations reside and vote in this district, and two
Individual Plaintiffs, Stephenson and Alwin, also
reside and vote in this district.

App. 51
PARTIES
Plaintiffs
6. Plaintiffs include three nonprofit groups, each
with members or constituents who are citizens,
residents, and qualified voters of the United States of
America and the State of Wisconsin, residing in various
counties and legislative districts, including in
now-overpopulated districts (the “Organizational
Plaintiffs”).
7. Plaintiff Black Leaders Organizing for
Communities (“BLOC”) is a nonprofit project
established in 2017 to ensure a high quality of life and
access to opportunities for members of the Black
community in Milwaukee and throughout Wisconsin.
BLOC is a year-round civic-engagement organization
that has a robust field program to get out the vote and
do civic education work door-to-door with community
members and through its fellowship program. During
2018 BLOC made 227,000 door attempts in Milwaukee,
targeting Black residents to exercise their right to
engage in civic participation including voting. BLOC
trains its constituents on the civics process and on
different ways to make their voices heard, including
(but not limited to) voting in each election. BLOC is
regarded and used by members of the
African-American community in Milwaukee as a
resource and conduit through which they can become
more engaged in and advocate for rights and political
representation for members of their community.
8. Plaintiff Voces de la Frontera (“Voces”) is a
nonpartisan, nonprofit, non-stock corporation

App. 52
organized under the laws of the State of Wisconsin
with its principal office located at 515 S. 5th St., in the
City of Milwaukee, Milwaukee County, Wisconsin.
Voces, a community-based organization currently with
over one thousand dues-paying members, was formed
in 2001 to advocate on behalf of the rights of immigrant
and low-income workers. Voces currently has chapters
in Milwaukee, Racine, Waukesha, Sheboygan,
Walworth County, Madison, West Bend, Manitowoc,
and Green Bay. Voces is dedicated to educating and
organizing its membership and community members to
exercise their right to vote as protected by the
Constitution and the Voting Rights Act of 1965. Voces
has sought legal redress in multiple cases to protect the
voting rights of Wisconsin’s Latino voters, including
challenging discriminatory legislative districts (as
recently as in Baldus in 2011) and voter registration
and photo ID requirements. Voces seeks to maximize
eligible-voter participation through its
voter-registration efforts and encourage civic
engagement through registration and voting.
9. Plaintiff League of Women Voters of Wisconsin
(“LWVWI”) is a nonpartisan, nonprofit, non-stock
corporation organized under the laws of the State of
Wisconsin with its principal office located at 612 West
Main St., Suite 200, in the City of Madison, Dane
County, Wisconsin. LWVWI is an affiliate of The
League of Women Voters of the United States, which
has 750 state and local Leagues in all 50 states, the
District of Columbia, Puerto Rico, the Virgin Islands,
and Hong Kong. LWVWI works to expand informed,
active participation in state and local government,
giving a voice to all Wisconsinites. LWVWI, a

App. 53
nonpartisan community-based organization, was
formed in 1920, immediately after the enactment of the
Nineteenth Amendment granting women’s suffrage.
LWVWI is dedicated to encouraging its members and
the people of Wisconsin to exercise their right to vote as
protected by the Constitution and the Voting Rights
Act of 1965. The mission of LWVWI is to promote
political responsibility through informed and active
participation in government and to act on select
governmental issues. LWVWI seeks to maximize
eligible-voter participation through its
voter-registration efforts and encourage civic
engagement through registration and voting. LWVWI
works with and through 20 local Leagues in the
following cities, counties, and areas throughout
Wisconsin: Appleton, Ashland/Bayfield Counties,
Beloit, Dane County, Door County, the Greater
Chippewa Valley, Greater Green Bay, Janesville, the
La Crosse area, Manitowoc County, Milwaukee County,
the Northwoods, Ozaukee County, the Ripon area,
Sheboygan County, the Stevens Point area, the St.
Croix Valley, the Whitewater area, Winnebago County,
and the Wisconsin Rapids area. These local Leagues
have approximately 2,800 members, all of whom are
also members of LWVWI. LWVWI has prosecuted
lawsuits in state and federal courts in Wisconsin to
vindicate the voting and representational rights of
Wisconsin voters; this includes actions in this Court,
such as Swenson v. Bostelmann, 20-cv-459-wmc (W.D.
Wis. 2020), and Lewis v. Knudson, 20-cv-284 (W.D.
Wis. 2020).
10.
Organizational Plaintiffs’ members and
constituents include voters who reside in various State

App. 54
Senate and Assembly districts across Wisconsin,
including districts that are now overpopulated. Because
they live in state legislative districts that were
approximately equal in population with the other state
legislative districts at the time the current districts
were configured in 2011, but that are now
overpopulated as a result of the state population count
released by the Census Bureau on April 26, 2021, their
votes are now diluted compared with voters in districts
that are now underpopulated. This vote dilution
constitutes a specific and personal injury to each voter
in an overpopulated district that can be addressed by
a federal court. See Reynolds, 377 U.S. at 561; Baker,
369 U. S. at 206.
11.
Plaintiffs also include individual voters
(“Individual Plaintiffs”) who reside either in
now-overpopulated districts or in districts that violate
Section 2 of the Voting Rights Act. The residency of
Individual Plaintiffs in three overpopulated districts is
summarized here:
IndividualState
Population State
Plaintiff Assembly compared Senate
District
District to 2020
Census
ideal
Cindy
AD5
+13.26% SD2
Fallona
Lauren
AD76
+20.41% SD26
Stephenson
Rebecca
AD79
+17.13% SD27
Alwin

Population
compared
to 2020
Census
ideal
+2.77%
+13.00%
0.0947

12.
Individual Plaintiff Cindy Fallona resides in
Wisconsin Assembly district 5 and State Senate district

App. 55
2. Fallona has lived at this residence for over three
decades and is a regular voter in Wisconsin elections.
Fallona intends to vote in 2022 and is registered at this
residence, with no plans to register at a different
address.
13.
Individual Plaintiff Lauren Stephenson
resides in Wisconsin Assembly district 76 and State
Senate district 26. Stephenson has lived at this
residence for over six years and is a regular voter in
Wisconsin elections. Stephenson intends to vote in 2022
and is registered at this residence, with no plans to
register at a different address.
14.
Individual Plaintiff Rebecca Alwin resides in
Wisconsin Assembly district 79 and State Senate
district 27. Alwin has lived at this residence for over 25
years and is a regular voter in Wisconsin elections.
Alwin intends to vote in 2022 and is registered at this
residence, with no plans to register at a different
address.
15.
Individual Plaintiffs also include Black voters
whose votes are diluted in violation of Section 2 of the
Voting Rights Act by placing them in Milwaukee-area
Assembly districts that are either packed with
excessively high numbers of Black voters—well above
what is necessary to afford them an equal opportunity
to elect their preferred candidates—or cracked from
districts containing other Black voters, where their
voting power is instead overwhelmed by a white bloc
voting in opposition to their candidates of choice.
16.
Plaintiff Helen Harris is an African-American
citizen of the United States and of the State of

App. 56
Wisconsin. She is a resident and registered voter in
Milwaukee County in Assembly District 22. Ms. Harris
has been unable to elect candidates of her choice to the
Wisconsin State Assembly despite strong electoral
support for those candidates from other
African-American voters in her community. An
additional BVAP majority district could be drawn
including the Milwaukee County portion of Assembly
district 22, including Ms. Harris’s residence, to provide
a remedy for the existing Section 2 violation. The
apportionment of six majority-minority districts to the
sufficiently numerous and geographically compact
Black voting age population in the Milwaukee region,
as opposed to the seven such districts required by the
Voting Rights Act, dilutes Ms. Harris’s voting power
and affords her less opportunity than other members of
the electorate to participate in the political process and
to elect a representative of her choice to the Wisconsin
State Assembly.
17.
Plaintiff Woodrow Wilson Cain, II, is an
African-American citizen of the United States and of
the State of Wisconsin. He is a resident and registered
voter in the Village of Brown Deer, in Milwaukee
County, in Assembly District 24. Mr. Cain has been
unable to elect candidates of his choice to the
Wisconsin State Assembly despite strong electoral
support for those candidates from other
African-American voters in his community. An
additional BVAP majority district could be drawn
including the Village of Brown Deer, including Mr.
Cain’s residence, to provide a remedy for the existing
Section 2 violation. The apportionment of six
majority-minority districts to the sufficiently numerous

App. 57
and geographically compact Black voting age
population in the Milwaukee region, as opposed to the
seven such districts required by the Voting Rights Act,
dilutes Mr. Cain’s voting power and affords him less
opportunity than other members of the electorate to
participate in the political process and to elect a
representative of his choice to the Wisconsin State
Assembly.
18.
Plaintiff Nina Cain is an African-American
citizen of the United States and of the State of
Wisconsin. She is a resident and registered voter in the
Village of Brown Deer, in Milwaukee County, in
Assembly District 24. Ms. Cain has been unable to elect
candidates of her choice to the Wisconsin State
Assembly despite strong electoral support for those
candidates from other African-American voters in her
community. An additional BVAP majority district could
be drawn including the Village of Brown Deer,
including Ms. Cain’s residence, to provide a remedy for
the existing Section 2 violation. The apportionment of
six majority-minority districts to the sufficiently
numerous and geographically compact Black voting age
population in the Milwaukee region, as opposed to the
seven such districts required by the Voting Rights Act,
dilutes Ms. Cain’s voting power and affords her less
opportunity than other members of the electorate to
participate in the political process and to elect a
representative of her choice to the Wisconsin State
Assembly.
19.
Plaintiff Tracie Y. Horton is an
African-American citizen of the United States and of
the State of Wisconsin. She is a resident and registered

App. 58
voter in the Village of Brown Deer, in Milwaukee
County, in Assembly District 24. Ms. Horton has been
unable to elect candidates of her choice to the
Wisconsin State Assembly despite strong electoral
support for those candidates from other
African-American voters in her community. An
additional BVAP majority district could be drawn
including the Village of Brown Deer, including Ms.
Horton’s residence, to provide a remedy for the existing
Section 2 violation. The apportionment of six
majority-minority districts to the sufficiently numerous
and geographically compact Black voting age
population in the Milwaukee region, as opposed to the
seven such districts required by the Voting Rights Act,
dilutes Ms. Horton’s voting power and affords her less
opportunity than other members of the electorate to
participate in the political process and to elect a
representative of her choice to the Wisconsin State
Assembly.
20.
Plaintiff Pastor Sean Tatum is an
African-American citizen of the United States and of
the State of Wisconsin. He is a resident and registered
voter in the Village of Brown Deer, in Milwaukee
County, in Assembly District 24. Pastor Tatum has
been unable to elect candidates of his choice to the
Wisconsin State Assembly despite strong electoral
support for those candidates from other
African-American voters in his community. An
additional BVAP majority district could be drawn
including the Village of Brown Deer, including Pastor
Tatum’s residence, to provide a remedy for the existing
Section 2 violation. The apportionment of six
majority-minority districts to the sufficiently numerous

App. 59
and geographically compact Black voting age
population in the Milwaukee region, as opposed to the
seven such districts required by the Voting Rights Act,
dilutes Pastor Tatum’s voting power and affords him
less opportunity than other members of the electorate
to participate in the political process and to elect a
representative of his choice to the Wisconsin State
Assembly.
21.
Plaintiff Melody McCurtis is an
African-American citizen of the United States and the
State of Wisconsin. She is a resident and registered
voter in the City of Milwaukee, in Assembly District 18.
Ms. McCurtis is denied an equal opportunity to vote for
candidates for the Wisconsin State Assembly because
she is packed in District 18, where her vote is of lesser
value because African Americans are concentrated
there. The apportionment of six BVAP majority
districts to the sufficiently numerous and
geographically compact Black population in the
Milwaukee area, as opposed to seven BVAP majority
districts required by the Voting Rights Act, dilutes Ms.
McCurtis’s voting power.
22.
Plaintiff Barbara Toles is an adult
African-American citizen of the United States and the
State of Wisconsin. She is a resident and registered
voter in the City of Milwaukee, in Assembly District 17.
Ms. Toles is denied an equal opportunity to vote for
candidates for the Wisconsin State Assembly because
she is packed in District 17, where her vote is of lesser
value because African Americans are concentrated
there. The apportionment of six BVAP majority
districts to the sufficiently numerous and

App. 60
geographically compact Black population in the
Milwaukee area, as opposed to seven BVAP majority
districts required by the Voting Rights Act, dilutes Ms.
Toles’s voting power.
23.
Plaintiff Edward Wade, Jr., is a 51-year-old
African-American citizen of the United States and the
State of Wisconsin. He is a resident and registered
voter in the City of Milwaukee, in Assembly District 12.
Mr. Wade is denied an equal opportunity to vote for
candidates for the Wisconsin State Assembly because
he is packed in District 12, where his vote is of lesser
value because African Americans are concentrated
there. The apportionment of six BVAP majority
districts to the sufficiently numerous and
geographically compact Black population in the
Milwaukee area, as opposed to seven BVAP majority
districts required by the Voting Rights Act, dilutes Mr.
Wade’s voting power.
Defendants
24.
Defendants Robert F. Spindell, Jr., Mark L.
Thomsen, Dean Knudson, Julie M. Glancey, Ann S.
Jacobs, and Marge Bostelmann are sued in their
official capacities as the members of the Wisconsin
Elections Commission (“WEC”).
25.
Defendant Meagan Wolfe is sued in her
official capacity as the Administrator of the WEC.
26.
The WEC has the responsibility for the
administration and enforcement of Wisconsin laws
“relating to elections” including Chapters 5 to 10 and
12. Wis. Stat. § 5.05(1). This includes the election every
two years of Wisconsin’s representatives in the State

App. 61
Assembly and every four years its representatives in
the State Senate. The WEC provides support to local
clerks in each of Wisconsin’s 72 counties, in
administering and preparing for the election of
members of the Wisconsin Legislature.
27.
Defendant
Wolfe,
as
commission
administrator, is the chief election officer of the state.
Wis. Stat. § 5.05(3g).
FACTS AND CONSTITUTIONAL PROVISIONS
RELATED TO MALAPPORTIONMENT
28.
The U.S. Constitution requires that the
members of the Wisconsin Legislature be elected on the
basis of equal representation. Arrington, 173 F. Supp.
2d at 860 (citing U.S. Const. art. I, § 2). The State
Senate and Assembly districts must therefore be
reapportioned after each Federal Census to be
substantially equal in population.
29.
The Due Process Clause of the Fifth
Amendment to the U.S. Constitution provides that
“[n]o person shall … be deprived of life, liberty, or
property, without due process of law.”
30.
The Equal Protection Clause of the
Fourteenth Amendment to the U.S. Constitution
provides, in pertinent part:
No state shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States; nor shall any State
deprive any person of life, liberty, or property,
without due process of law; nor deny to any

App. 62
person within its jurisdiction
protection of the laws.

the

equal

This provision guarantees to the citizens of each state
the right to vote in state elections, and that each citizen
shall have substantially equal legislative
representation regardless of what part of the state they
live in, giving each person’s vote equal power.
Reynolds, 377 U.S. 533, 561-68 (1964).
31.
2011 Wisconsin Act 43 divided the official
state population determined by the 2010 Census into
33 Senate districts and 99 Assembly districts with
relatively equal populations. The revisions ordered by
the court Baldus in 2012 did not disturb this
approximate equality, despite modifying two Assembly
districts. In 2012, each Senate district contained a
population of approximately 172,333 residents, and
each Assembly district contained a population of
approximately 57,444. A copy of Chapter 4 of the
Wisconsin Statutes, embodying 2011 Wisconsin Act 43,
is attached as Exhibit 5.
32.
The 2012 state legislative elections, and every
subsequent biennial legislative election, including the
November 6, 2020 election, have been conducted under
the district boundaries created by Act 43, as modified
by Baldus. The next regular state legislative primary
election is scheduled for August 9, 2022, and the next
regular state legislative general election is scheduled
for November 8, 2022.9

9

“Upcoming Elections,” Wisconsin Elections Commission, available
at: https://elections.wi.gov/elections-voting/elections.

App. 63
33.
The Bureau of the Census, U.S. Department
of Commerce, conducted a decennial census of
Wisconsin and of all the other states in 2020 under
Article I, Section 2, of the U.S. Constitution.
34.
Under 2 U.S.C. §§ 2a and 2c and 13 U.S.C.
§ 141(c), the Census Bureau on April 26, 2021
announced and certified the actual enumeration of the
population of Wisconsin at 5,893,718 as of April 1,
2020, a population increase of approximately 200,000
people from the 2010 census. A copy of the Census
Bureau’s Apportionment Population and Number of
Representatives, by state, is attached as Exhibit 6.
35.
Based on the 2020 Census, the precise ideal
population for each Senate district in Wisconsin is
178,598 and for each Assembly district 59,533 (each an
increase compared to the same figures from 2010).
36.
The 2020 Census’s P.L. 94-171 data, released
August 12, 2021, demonstrate that Wisconsin’s
population has not grown uniformly across all 33
Senate and 99 Assembly districts. The data reveal
substantial population disparities, indicating which
districts are now over- and underpopulated in reference
to the 2020 Census’s “ideal” district populations for
Wisconsin’s Senate and Assembly districts.
37.
Because of population shifts over the past
decade, the 2011 state legislative districts now give
some Wisconsinites’ votes more weight than others.
Voters living in Assembly district 76—where the
population is 20.41% greater than the ideal population
based on the 2020 Census— have their votes diluted.
This is particularly true compared to voters in other

App. 64
districts like Assembly district 10—now 11.60% less
populated than the ideal district population. Voters in
the 37 other overpopulated districts suffer similar
harm: Assembly districts 79, 5, 78, and 80 have grown
overpopulated in the past decade (with populations
now 17.13%, 13.26%, 12.78%, and 10.58% over the ideal
district population, respectively). Other districts are
now underpopulated, giving voters who reside there an
outsized voice in electing their state representative.
Assembly districts 18, 16, and 8, for example, now have
populations 11.00%, 9.73%, and 9.30% below the ideal
population of 59,533, respectively, based on the 2020
Census.
38.
The same population growth imbalances
affect Senate districts, with some voters suffering vote
dilution and others benefitting from heightened voting
efficiency. Senate district 26 has grown to exceed the
current ideal district population of 178,598 by 13.00%;
Senate district 27 by 9.47%; and Senate district 16 by
7.78%. Meanwhile Senate district 6 is now
underpopulated by 9.25% relative to the ideal Senate
district size and Senate districts 4, 3, and 22 are 8.62%,
4.43%, and 4.19% below the ideal size.
39.
This facial malapportionment of state
legislative districts dilutes the voting strength of
Individual Plaintiffs residing in the overpopulated
districts: the weight or value of each voter in a
relatively overpopulated district is, by definition, less
than that of any voter residing in a relatively
underpopulated district.
40.
Article IV, section 3, of the Wisconsin
Constitution assigns the Legislature and Governor

App. 65
responsibility for enacting a constitutionally valid plan
for the state’s legislative districts.
41.
In each of the previous four decades, when
control over Wisconsin’s government has been divided
between members of the Republican and Democratic
Parties, however, the Legislature and Governor have
not met that responsibility. Instead, a federal court has
established district boundaries to ensure the
constitutional guarantees for citizens and voters.
42.
In the most recent round of decennial
redistricting in 2011, the Legislature and Governor did
enact a legislative district plan, but that plan, too,
required judicial intervention to give Wisconsin a
legally compliant legislative district map.
43.
The legislature elected in November 2020
convened for the first time on January 4, 2021. Both
the Senate and Assembly are controlled by Republican
majorities, while the Governor is a Democrat. Each
time in the past four decades that Wisconsin has had
divided partisan control when redistricting was
required, the political branches have failed to reach a
compromise, requiring a federal court to step in and
assume the constitutionally mandated
reapportionment of state legislative districts. See
Prosser, 793 F. Supp. 859; AFL-CIO, 543 F. Supp. 630;
Baumgart, 2002 WL 34127471, amended by 2002 WL
34127473. The low likelihood of an enacted
redistricting plan in the current cycle is evidenced by
the Legislature’s recent preference for litigation over
legislation, as described in detail above.

App. 66
44.
The deadline for new districts to be in place
is driven by the 2022 elections for state legislative
seats. The date of the primary for these elections is
dictated by state statute, and in 2022 will be August 9.
Because there are a number of steps leading up to an
election, however, new districts must be set no later
than March 15, 2022. This is the statutory deadline for
the WEC to notify county clerks of which offices will be
voted on, and where information about district
boundaries can be found. This notice informs potential
candidates of district boundaries, so they can begin
circulating nomination papers for signature by voters
within those districts on April 15, 2022. Wis. Stat.
§ 8.15(1). The statutory deadline for completed
nomination papers to be submitted to the WEC is June
1, 2022. Id. The WEC must then certify which
candidates have qualified for ballot access, followed by
ballot design, testing, printing, and then distribution of
absentee ballots, which must begin no later than 47
days election day. See Wis. Stat. § 7.15. Thus, while the
primary election occurs in August, new districts must
be in place several months before that date for the
WEC to comply with state law, and so that candidates
may appear on the ballot for the election on that date.
LEGAL BACKGROUND RELATED TO VOTING
RIGHTS ACT SECTION 2 CLAIM
45.
Section 2 of the Voting Rights Act, 52 U.S.C.
§ 10301(a), prohibits any “standard, practice, or
procedure” that “results in a denial or abridgement of
the right of any citizen of the United States to vote on
account of race or color . . . .” A violation of Section 2 is
established if it is shown that “the political processes

App. 67
leading to [a] nomination or election” in the jurisdiction
“are not equally open to participation by [minority
voters] in that its members have less opportunity than
other members of the electorate to participate in the
political process and to elect representatives of their
choice.” Id. § 10301(b).
46.
The dilution of Black voting strength “may be
caused by the dispersal of blacks into districts in which
they constitute an ineffective minority of voters or from
the concentration of blacks into districts where they
constitute an excessive majority.” Thornburg v.
Gingles, 478 U.S. 30, 46 n.11 (1986).
47.
In Gingles, the Supreme Court identified
three necessary preconditions (“the Gingles
preconditions”) for a claim of vote dilution under
Section 2 of the Voting Rights Act: (1) the minority
group must be “sufficiently large and geographically
compact to constitute a majority in a single-member
district”; (2) the minority group must be “politically
cohesive”; and (3) the majority must vote “sufficiently
as a bloc to enable it . . . usually to defeat the
minority’s preferred candidate.” 478 U.S. at 50-51.
48.
After the preconditions are established, the
statute directs courts to assess whether, under the
totality of the circumstances, members of the racial
group have less opportunity than other members of the
electoral to participate in the political process and to
elect representatives of their choice. 52 U.S.C.
§ 10301(b). The Court has directed that the Senate
Report on the 1982 amendments to the Voting Rights
Act be consulted for its non-exhaustive factors that the
court should consider in determining if, in the totality

App. 68
of the circumstances in the jurisdiction, the operation
of the electoral device being challenged results in a
violation of Section 2.
49.
The Senate Factors include: (1) the history of
official voting-related discrimination in the state or
political subdivision; (2) the extent of which voting in
the elections of the state or political subdivision is
racially polarized; (3) the extent to which the state or
political subdivision has used voting practices or
procedures that tend to enhance the opportunity for
discrimination against the minority group; (4) the
exclusion of members of the minority group from
candidate slating processes; (5) the extent to which the
minority group bears the effects of discrimination in
areas such as education, employment, and health,
which hinder their ability to participate effectively in
the political process; (6) the use of overt or subtle racial
appeals in political campaigns; and (7) the extent to
which members of the minority group have been
elected to public office in the jurisdiction.
50.
Nevertheless, “there is no requirement that
any particular number of factors be proved, or that a
majority of them point one way or the other.” United
States v. Marengo Cty. Comm’n, 731 F.2d 1546, 1566
n.33 (11th Cir. 1984) (quoting S. Rep. No. 97-417, at 29
(1982)); see also id. (“The statute explicitly calls for a
‘totality-of-the-circumstances’ approach and the Senate
Report indicates that no particular factor is an
indispensable element of a dilution claim.”).

App. 69
FACTUAL BACKGROUND RELATED TO
SECTION 2 CLAIM
51.
Wisconsin Act 43 created six Assembly
districts that have a majority Black voting age
population in the Milwaukee area. Those districts are
heavily Black and pack the vast majority of
Milwaukee’s Black population in them, while at the
same time leaving other Black voters, including those
in Milwaukee wards 33 and 34, and the Village of
Brown Deer, cracked in districts featuring white bloc
voting against minority preferred candidates.
52.
District 10 has a BVAP of 59.4%, and has
been represented by Democratic state representative
David Bowen, a Black man, since 2015. Rep. Bowen
has run unopposed for his seat in every election since
he won the 2014 primary for the district.
53.
District 11 has a BVAP of 65.5% and has
been represented by Democratic state representative
Dora Drake, a Black woman, since 2021. Rep. Drake
defeated her Republican opponent by a margin of 84.6%
to 15.2% in the 2020 general election. From 2017 to
2021, District 11 was represented by Democratic state
representative Jason Fields, a Black man, who ran
unopposed in both the 2016 and 2018 general elections.
From 2013 to 2017, District 11 was represented by
Democratic state representative Mandela Barnes, a
Black man, who ran unopposed in the both the 2012
and 2014 general elections.
54.
District 12 has a BVAP of 60.6% and has
been represented by Democratic state representative
LaKeshia Myers, a Black woman, since 2019. Rep.

App. 70
Myers defeated her Republican opponent by a margin
of 81.7% to 18.1% in the 2020 general election, and ran
unopposed in the 2018 general election. In the 2018
Democratic primary election, Rep. Myers defeated
then-incumbent Democratic Rep. Fred Kessler, a white
man, by a margin of 59.3% to 40.7%. Rep. Kessler ran
unopposed in the 2012, 2014, and 2016 general
elections.
55.
District 16 has a BVAP of 55.6% and has
been represented by Democratic state representative
Kalan Haywood, a Black man, since 2019. In the 2020
general election, Rep. Haywood faced no major party
opponent, defeating an independent candidate by a
margin of 88.9% to 10.8%. Rep. Haywood was
unopposed in the 2018 general election. Prior
Democratic state representative Leon Young, a Black
man, ran unopposed in the 2012, 2014, and 2016
general elections.
56.
District 17 has a BVAP of 68.4% and has
been represented by Democratic state representative
Supreme Moore Omokunde, a Black man, since 2021.
Rep. Omokunde defeated his Republican opponent by
a margin of 85.9% to 13.9% in the 2020 general
election. From 2017 to 2021, District 17 was
represented by Democratic state representative David
Crowley, a Black man, who ran unopposed in the 2018
and 2016 general elections. Prior Democratic state
representative LaTonya Johnson, a Black woman,
defeated her independent challengers by a margin of
87.5% to 12.5% in the 2014 general election and 84.7%
to 14.9% in the 2012 general election.

App. 71
57.
District 18 has a BVAP of 60.7% and has
been represented by Democratic state representative
Evan Goyke, a white man, since 2013. Rep. Goyke ran
unopposed in the 2014, 2016, 2018, and 2020 general
elections. Rep. Goyke defeated his Libertarian Party
challenger in the 2012 general election by a margin of
87.9% to 11.6%.
58.
Wisconsin Act 43 “packs” Black voters in
Districts 10, 11, 12, 16, 17, and 18, where they
constitute an excessive majority, and “cracks” Black
voters in other parts of the Milwaukee area, such as
Milwaukee City wards 33 and 34, and the Village of
Brown Deer, dispersing them in Districts 22 and
24—centered in heavily white suburban areas of
Ozaukee, Washington, and Waukesha
Counties—where white bloc voting prevents Black
voters from having an equal opportunity to elect their
candidates of choice.
59.
District 22 has a white voting-age population
(“WVAP”) of 84.3% and a BVAP of 7.0%, and stretches
from the Town of Erin and the Village of Richfield in
Washington County, south to the Town of Lisbon, and
the Villages of Menomonee Falls, Lannon, and Butler
in Waukesha County, and into the City of Milwaukee,
where it picks up two wards—Milwaukee City wards
33 and 34. The Waukesha County and Washington
County portions of the district are heavily white and
vote heavily Republican. The Milwaukee County
portion of District 22 has a BVAP of 43.3% (35.7% in
ward 33 and 52.8% in ward 34), and votes heavily
Democratic. The Milwaukee County portion of District

App. 72
22 borders District 12, one of the BVAP majority
districts.
60.
District 22 has been represented by
Republican state representative Janel Brandtjen, a
white woman, since 2015. Rep. Brandtjen ran
unopposed in the 2020 and 2016 general elections. In
the 2018 general election, Rep. Brandtjen defeated her
Democratic opponent, Aaron Matteson, by a margin of
64.3% to 35.7%. Mr. Matteson carried the Milwaukee
County portion of the district, however, by a margin of
70.9% to 29.1%. In the 2014 general election, Rep.
Brandtjen defeated her Democratic opponent, Jessie
Read, by a margin of 70.1% to 29.9%. Ms. Read carried
the Milwaukee County portion of the district, however,
by a margin of 65.6% to 35.4%. Prior Republican state
representative Don Pridemore, a white man, was
unopposed in the 2012 general election.
61.
District 24 has a WVAP of 77.5% and a BVAP
of 12.3%. It stretches from Washington County, where
it includes the Town and Village of Germantown, into
Waukesha County, where it includes part of the Village
of Menomonee Falls, into Ozaukee County, where it
includes portions of the City of Mequon, into
Milwaukee County, where it includes the Village of
Brown Deer, the Village of River Hills, and part of the
City of Glendale. The Village of Brown Deer has a
significantly larger BVAP than the rest of District 24,
at 38.2%. The Village of Brown Deer borders BVAP
majority Districts 11 and 12.
62.
District 24 has been represented by
Republican state representative Daniel Knodl, a white
man, since 2009. In the 2020 general election, Rep.

App. 73
Knodl defeated his Democratic opponent Emily
Siegrist, a Latina woman, by a margin of 51.4% to
48.5%. But Siegrist carried the Village of Brown Deer,
in Milwaukee County, by a margin of 71.1% to 28.9%.
In the 2018 general election, Rep. Knodl defeated his
Democratic opponent Emily Siegrist by a margin of
53.6% to 46.3%. But Siegrist carried the Village of
Brown Deer, in Milwaukee County, by a margin of
69.8% to 30.2%. Rep. Knodl ran unopposed in the 2014
and 2016 general elections. In the 2012 general
election, Rep. Knodl defeated his Democratic opponent,
Shan Haqqi, by a margin of 62.4% to 37.5%. But Haqqi
carried the Village of Brown Deer, in Milwaukee
County, by a margin of 58.8% to 42.2%.
63.
By unpacking Districts 10, 11, 12, 16, 17, and
18’s Black population and combining it with Black
populations in the Village of Brown Deer, other parts
of Milwaukee County, and including additional
population in other areas of Milwaukee and Ozaukee
Counties, the Wisconsin Legislature could have drawn
seven BVAP majority districts, as required by Section
2 of the Voting Rights Act. A demonstrative plan
showing seven BVAP majority districts is attached as
Exhibit 7.
Racially Polarized Voting
64.
Black voters in the Milwaukee area are
politically cohesive and overwhelmingly support
Democratic candidates.
65.
The white majority, particularly in
Waukesha, Ozaukee, and Washington Counties, and
parts of Milwaukee County, overwhelmingly supports

App. 74
Republican candidates, and votes as a bloc usually to
defeat Black voters’ candidates of choice.
66.
For example, as the election returns for
Districts 22 and 24 reported above show, the
Republican incumbents carried the heavily white
portions of their districts outside Milwaukee County by
large margins, while losing by large margins the
portions of the City of Milwaukee and the Village of
Brown Deer contained in those districts, which have
large Black populations.
67.
Election results in homogenous precincts
illustrate the racially polarized voting. Across the 37
Milwaukee City wards where BVAP exceeds 90%, Tony
Evers (D) received 96.4% and Scott Walker (R) received
2.3% in the 2018 gubernatorial election. By contrast,
Washington County has a WVAP of 92.4% and Scott
Walker (R) received 72.2% and Tony Evers (D) received
26.5%. Waukesha County has a WVAP of 88.1%, and
Scott Walker (R) received 66.1% and Tony Evers (D)
received 32.5%. Ozaukee County has a WVAP of 90.8%,
and Scott Walker (R) received 62.7% and Tony Evers
(D) received 35.9%.
68.
Democratic primary elections in Milwaukee
County, as well as nonpartisan county-and city-wide
elections, demonstrate racially polarized voting as well.
As a result, white voters vote sufficiently as a bloc to
usually defeat Black voters’ candidates of choice
(absent the drawing of Section 2 compliant districts).
69.
For example, the 2018 Democratic primary
for Governor featured one Black candidate, Mahlon
Mitchell. Across the 37 Milwaukee City wards where

App. 75
BVAP exceeds 90%, Mitchell received 77.5% of the vote,
while Tony Evers received 11.8% of the vote in those
same wards. By contrast, in the Village of Whitefish
Bay, which has a WVAP of 85.9%, Mitchell received
10.5% of the vote, Evers received 46.9%, and other
white candidates split the remaining votes. In
Shorewood, which has a WVAP of 81.7%, Mitchell
received 12.8% of the vote, Evers received 41.9% of the
vote, and white candidates split the remaining votes. In
Fox Point, which has a WVAP of 85.3%, Mitchell
received 11.5% of the vote, Evers received 42.6% of the
vote, and white candidates split the remaining votes.
Mitchell lost the primary election to Evers statewide,
and while he received a plurality of votes in Milwaukee
County (35.2%), white candidates combined to receive
64.8% of the vote.
70.
Likewise, in the 2020 election for Milwaukee
City Comptroller, Aycha Sawa, a white woman,
defeated Jason Fields, a Black man, by a margin of
50.4% to 49.2%. But Fields carried the 37 city wards
with a BVAP of 90% or greater by a margin of 78.5% to
21.5%. Sawa, on the other hand, carried the 21 city
wards with a WVAP of 80% or greater by a margin of
68.7% to 31.3%.
71.
The 2016 election for Milwaukee City
Comptroller also demonstrated racially polarized
voting. Martin Matson, a white man, prevailed over
Johnny Thomas, a Black man, by a margin of 51.3% to
47.8%. But Thomas carried the 37 city wards with a
BVAP of 90% or greater by a margin of 66% to 33%,
while Matson carried the 21 city wards with a WVAP
of 80% or greater by a margin of 62.4% to 37.6%.

App. 76
72.
As another example, in the 2021 primary for
State Superintendent of Education, seven candidates
ran, and two white women—Jill Underly and Deborah
Kerr—advanced to the general election. The primary
included a Black woman, Shandowlyon
Hendricks-Williams. In Milwaukee County, Underly
received 31.4%, Kerr received 22.4%, and
Hendricks-Williams received 20.6%. Across the 37
Milwaukee City wards with a BVAP of 90% or greater,
however, Hendricks-Williams received 50.8%, Underly
received 9.8%, and Kerr received 17.7%. In the 21
Milwaukee City wards with a WVAP of 80% or greater,
Underly received 48.2%, Hendricks-Williams received
15.7%, Sheila Briggs (a white woman) received 14.3%,
and Kerr received 12.4%. Meanwhile, in the Fox Point,
which has a WVAP of 85.3%, Underly received 30.1%,
Kerr received 28.8%, Sheila Briggs (a white woman)
received 17.4%, and Hendricks-Williams received
13.1%. In Shorewood, which has a WVAP of 81.7%,
Underly received 50.2%, Briggs received 17.4%,
Hendricks-Williams received 13.9%, and Kerr received
12.2%. And in Whitefish Bay, which has a WVAP of
85.9%, Underly received 36.7%, Kerr received 21.6%,
Briggs received 17.2%, and Hendricks-Williams
received 17.2%.
73.
These and other election results illustrate a
consistent trend of racially polarized voting, with white
voters voting as a bloc to usually defeat Black voters’
candidates of choice absent the imposition of Section 2
remedies.

App. 77
Totality of Circumstances
74.
A review of the totality of circumstances
reveals that Black voters have less opportunity than
other members of the electorate to participate in the
political process and to elect representatives of their
choice. 52 U.S.C. § 10301(b).
75.
Wisconsin has a history of discriminatory
voting practices. For example, a three-judge district
court for the Western District of Wisconsin ruled in
2012 that Act 43 violated Section 2 of the Voting Rights
Act with respect to its treatment of Latino voters in the
State Assembly map in Milwaukee County. See Baldus
v. Members of the Government Accountability Board,
862 F. Supp. 2d 860, 863 (E.D. Wis. 2012).
76.
Moreover, a 2021 report by the U.S. House
Administration Committee’s Subcommittee on
Elections found that voter purge mailers were
disproportionately sent to areas in Wisconsin home to
large Black voting populations, and those mailers were
twice as likely to be wrong for Black versus white
voters.
77.
As explained above, voting in Milwaukee
County and the surrounding counties is racially
polarized.
78.
Milwaukee has recent experience with voting
practices that enhance the opportunity for
discrimination against Black voters. The vast majority
of Wisconsin’s Black voters reside in the City of
Milwaukee—the State’s largest city. In the April 2020
election, held at the height of the COVID-19 pandemic,
the City of Milwaukee had just five in-person polling

App. 78
sites (compared to the usual 180 sites), while the City
of Madison—a less-populous and predominantly white
city—had 66 in-person polling sites.
79.
A study by the Brennan Center found that
these poll closures depressed turnout in the City of
Milwaukee by 8.6 percentage points (a one-third drop),
with a disproportionate effect on Black voters, whose
turnout was depressed by 10.2 percentage points. News
reports show that voters in the City of Milwaukee—and
particularly Black voters—waited in lines for hours to
vote in the April 2020 election. See
https://www.brennancenter.org/our-work/research-re
ports/did-consolidating-polling-places-milwaukee-depr
ess-turnout (last accessed September 7, 2021).
80.
A study published in 2019 found that
Wisconsin’s voter ID law, passed by the Legislature
and signed into law by Governor Walker in 2011, and
generally viewed as one of the strictest such laws in the
United States, reduced turnout in Milwaukee and Dane
Counties in the 2016 presidential election by up to one
percentage point, deterring or preventing thousands of
voters from casting their ballot. The study further
found that African-American voters are more likely to
have been deterred or prevented from voting by
Wisconsin’s strict voter ID law than white voters. See
Michael G. DeCrescenzo & Kenneth R. Mayer, Voter
Identification and Nonvoting in Wisconsin – Evidence
from the 2016 Election, 18 ELECTION L.J. 342 (2019).
81.
Black voters in Milwaukee also bear the
effects of discrimination in employment, education, and
health, which hinders their ability to participate
effectively in the political process.

App. 79
82.
A 2020 Zippia study ranked Wisconsin the
worst state in the nation for racial disparities,
reporting a 48% home ownership gap, a 37% income
gap, and a 16.7% education gap between Black and
white residents of Wisconsin.
83.
A 2019 report by the Center on Wisconsin
Strategy, a UW-Madison based think tank, found that
Wisconsin had the fourth worst disparity in the nation
between Black and white infant mortality, the fourth
worse disparity for child poverty, the worst disparity
for 8th grade math scores, the second worst disparity
for out-of-school suspensions, the worst disparity for
bachelor’s degrees, the second worst disparity for
incarceration, the worst disparity for unemployment,
the worst disparity for employment, the third worst
disparity for income, and the eighth worst disparity for
home ownership.
84.
For the 2018-19 school year, Wisconsin
reported a 23-percentage-point gap between high school
graduation rates for Black students (71%) and white
students (94%)—the largest gap of any state in the
nation, and second only to the District of Columbia. A
2020 study by the financial firm WalletHub ranked
Wisconsin last in the nation for educational equality,
citing the graduation rate gap, the standardized test
score gap, the college entrance exam score gap, and the
college degree gap between white and minority
populations.
85.
The 2018 American Community Survey data
showed that the unemployment rate among Black
residents of Wisconsin was nearly three times that of
white residents.

App. 80
86.
According to the Prison Policy Initiative,
Black people account for 38% of all persons in
Wisconsin jails and prisons, but just 6% of the State’s
population. Wisconsin’s incarceration rate of Black
people is one of the highest in the nation.
87.
Wisconsin has severe health disparities
between Black and white residents. Ozaukee County,
which is predominantly white and has the
second-highest median income in the states, ranked
first for overall health of its residents in a 2019 report
on health disparities by the Wisconsin Collaborative for
Healthcare Quality. Milwaukee County, which has the
vast majority of Wisconsin’s Black population and has
the highest rate of poverty in the state, ranked second
to last among Wisconsin counties for the overall health
of its residents. One measure showed that someone
living in Milwaukee County was almost twice as likely
to die before age 75 than someone living in Ozaukee
County.
88.
These disparities are reflected at the ballot
box. The 2019 Center for Wisconsin Strategy study
showed that while 74 percent of eligible white
Wisconsin voters participated in the 2016 election, just
47% of Black voters did—the third largest gap in the
country, behind only North and South Dakota.
89.
Campaigns in the Milwaukee area and
statewide have also featured overt and subtle racial
appeals. For example, in the 2020 campaign for
Assembly District 24, the Republican Party of
Wisconsin sent voters a mailer attacking Democratic
candidate Emily Siegrist, a Latina woman, for
attending a Black Lives Matter protest over the police

App. 81
shooting of Jacob Blake in Kenosha. The mailer attacks
Siegrist for taking her children to the protest, and
describes in detail an alleged assault committed by
Blake. The mailer shows a doctored photo showing
Siegrist holding up a made-up sign saying “Today I’m
protesting to support abusers. Tomorrow? Who
knows!!” It concluded by saying “Serial Protestor Emily
Siegrist now supports men who abuse women.”
90.
In the 2020 election for President, Donald
Trump aired an ad in Wisconsin accusing Joe Biden of
“taking a knee”—a reference to peaceful protests of
racial injustice started by football player Colin
Kaepernick—in response to protests over the police
shooting of Jacob Blake in Kenosha. The ad falsely
accused Joe Biden of calling to defund the police. While
showing the image of blond, white girl in pink, the
narrator says that Trump will protect Wisconsin’s
families, not criminals.
91.
On the day Deborah Kerr, a white woman,
placed second in the February 2021 primary for State
Superintendent of Schools—advancing to the general
election—she tweeted that she had been called an
n-word while in high school because “my lips were
bigger than most.” Kerr was widely seen as seeking
votes from conservative Wisconsinites.
92.
Although some Black candidates have had
success in winning office in the Milwaukee area, most
positions (outside of BVAP majority districts) are not
held by Black people, and the number of Black
officeholders has been far below number proportional
to the Black population in recent and past history. For
example, only two of out the eight current county

App. 82
government officials elected county-wide are Black.
David Crowley, the current County Executive (elected
in 2020), is the first Black person to ever elected to that
office. The City of Milwaukee has only ever had one
Black mayor: Marvin Pratt became acting mayor in
2004 upon the resignation of Mayor Norquist. He did
not become mayor by election, however, and when he
ran for a full term he was defeated in the 2004 general
election by Tom Barrett, a white man. The Milwaukee
region has no Black state representatives outside of the
BVAP majority districts. The city of Milwaukee
currently has no Black alderpersons outside of BVAP
majority districts. Milwaukee County has no Black
supervisors outside of BVAP majority districts.
93.
These and other factors demonstrate that the
totality of circumstances show that Black voters have
less opportunity than other voters to participate in the
political process and elect their candidates of choice.
CLAIMS FOR RELIEF
COUNT I
Malapportionment in Violation of the
Equal Protection Clause
94.
Plaintiffs incorporate by reference the
allegations in paragraphs 1 through 93, above.
95.
A state statute that effects district
populations and boundaries that discriminate against
citizens in highly populous legislative districts, by
definition preferring voters in less populous legislative
districts, violates the U.S. Constitution. The 2020
Census rendered the state’s 2011 legislative districts
unconstitutional, which harms or threatens to harm

App. 83
Plaintiffs’ constitutional rights unless future elections
under the current districts are enjoined.
96.
Shifts in population and population growth
have rendered the 33 Senate districts and 99 Assembly
districts created by 2011 Wisconsin Act 43 and
modified by Baldus no longer roughly equal in
population, as required by the federal constitution. The
population variations between and among the districts
are substantial.
97.
Organizational Plaintiffs’ members and
constituents who reside in the overpopulated 16th,
26th, and 27th Senate districts, among others, based on
the existing district lines, are particularly
underrepresented in comparison with the residents of
other districts.
98.
Organizational Plaintiffs’ members and
constituents who reside in the overpopulated 5th, 46th,
48th, 56th, 76th, 78th, 79th, and 80th Assembly
districts, among others, based on the existing district
lines, are particularly underrepresented in comparison
with the residents of other districts.
99.
Multiple Individual Plaintiffs reside in State
Senate and Assembly districts that are overpopulated,
and therefore their votes are diluted compared to
Wisconsin residents in districts that are now
underpopulated.
100. If not otherwise enjoined or directed, the
WEC will have no choice but to carry out its statutory
responsibilities for administering the upcoming 2022
legislative elections based on the now unconstitutional

App. 84
Senate and Assembly districts adopted in 2011
Wisconsin Act 43.
101. The boundaries and the populations they
define, unless modified, violate the principle of “one
person, one vote” and do not guarantee that the vote
and representation in the Wisconsin legislature for
every citizen is equivalent to the vote and
representation of every other citizen.
102. Plaintiffs and their members and
constituents are also harmed because, until valid
redistricting occurs, they cannot know in which Senate
and Assembly district individuals will reside and vote.
Therefore, they cannot effectively hold their
representatives accountable for their conduct and
policy positions advocated in office. Plaintiffs engage in
accountability and voter-education efforts that are
hindered by the lack of a valid redistricting plan
because:
a.
Their members and constituents who
desire to influence the views of members of the
Wisconsin Legislature or candidates for the Senate
and Assembly are not able to communicate their
concerns effectively because members of the
legislature or legislative candidates may not be held
accountable to those citizens as voters in the next
election;
b.
Potential candidates for the legislature
will not be able to come forward, and be supported
or opposed by Plaintiffs or their members, until
potential candidates know the borders of the

App. 85
districts in which they, as residents of the district,
could seek office; and,
c.
Plaintiffs’ members and constituents who
desire to communicate with and contribute
financially to candidates for the legislature who
may or will represent them, a right guaranteed by
the First Amendment, are hindered from doing so
until districts are correctly reapportioned;
103. Plaintiffs’ members and constituents’ rights
are compromised because of the inability of candidates
to campaign effectively and provide a meaningful
election choice.
COUNT 2
Act 43 violates Section 2 of the Voting Rights
Act, 52 U.S.C. § 10301
104. Plaintiffs incorporate by reference the
allegations in paragraphs 1 through 103.
105. Section 2 of the Voting Rights Act prohibits
the enforcement of any voting qualification or
prerequisite to voting or any standard, practice, or
procedure that results in the denial or abridgement of
the right of any U.S. citizen to vote on account of race,
color, or membership in a language minority group. 52
U.S.C. § 10301(a).
106. The current district boundaries of Assembly
Districts 10, 11, 12, 16, 17, and 18 “pack” Black voters,
while other Black voters, including those in Assembly
Districts 22 and 24, are “cracked,” resulting in dilution

App. 86
of the strength of the area’s Black residents, in
violation of Section 2 of the Voting Rights Act.
107. Under Section 2 of the Voting Rights Act, the
Wisconsin Legislature was required to create a seventh
majority BVAP district in which Black voters have the
opportunity to elect their candidates of choice.
108. Black voters in the Milwaukee area are
politically cohesive, and the elections in the area
illustrate a pattern of racially polarized voting that
allows the bloc of white voters usually to defeat Black
voters’ preferred candidates.
109. The totality of circumstances how that the
current State Assembly plan has the effect of denying
Black voters an equal opportunity to participate in the
political process and to elect their candidates of choice,
in violation of Section 2 of the Voting Rights Act, 52
U.S.C. § 10301.
110. Absent relief from this Court, Defendants will
continue to engage in the denial of Plaintiffs’ Section 2
rights.
RELIEF SOUGHT
WHEREFORE, Plaintiffs ask that the Court:
A.
Declare that the current configuration of
Wisconsin’s 33 Senate districts and 99 Assembly
districts, established by 2011 Wisconsin Act 43 and
modified by Baldus, based on the 2010 Census, is
unconstitutional and invalid and the maintenance of
those districts for the August 2022 primary election
and November 8, 2022 general election violates
Plaintiffs’ federal constitutional rights;

App. 87
B.
Declare that Act 43 violates Section 2 of the
Voting Rights Act
C.
Enjoin Defendants and the WEC’s employees
and agents, including the county clerks in each of
Wisconsin’s 72 counties and Wisconsin’s 1,850
municipal clerks and election commissions, from
administering, enforcing, preparing for, or in any way
permitting the nomination or election of members of
the Wisconsin Legislature from the unconstitutional
Senate districts and unconstitutional Assembly
districts that now exist in Wisconsin for the August
2022 primary election and November 2022 general
election;
D.
Establish a schedule that will enable the
Court, in the absence of a constitutional state law,
adopted by the Wisconsin Legislature and signed by
the Governor in a timely fashion, to adopt and
implement new State Senate and Assembly district
plans with districts substantially equal in population
and that otherwise meet the requirements of the U.S.
Constitution and statutes and the Wisconsin
Constitution and statutes;
E.
Order the adoption of a valid State Assembly
plan that includes a seventh BVAP majority district;
F.
Award Plaintiffs their costs, disbursements,
and reasonable attorneys’ fees incurred in bringing this
action, pursuant to 42 U.S.C. § 1988 and 52 U.S.C.
§ 10310(e); and,
G.
proper.

Grant such other relief as the Court deems

App. 88
Dated: September 7, 2021.
By:

/s/ Douglas M. Poland
Douglas M. Poland, SBN 1055189
Jeffrey A. Mandell, SBN 1100406
Rachel E. Snyder, SBN 1090427
Richard A. Manthe, SBN 1099199
STAFFORD ROSENBAUM LLP
222 West Washington Avenue,
Suite 900
P.O. Box 1784
Madison, WI 53701-1784
dpoland@staffordlaw.com
jmandell@staffordlaw.com
rsnyder@staffordlaw.com
rmanthe@staffordlaw.com
608.256.0226
Mel Barnes, SBN 1096012
LAW FORWARD, INC.
P.O. Box 326
Madison, WI 53703-0326
mbarnes@lawforward.org
608.535.9808
Mark P. Gaber*
Christopher Lamar*
CAMPAIGN LEGAL CENTER
1101 14th St. NW Suite 400
Washington, DC 20005
mgaber@campaignlegal.org
clamar@campaignlegal.org
202.736.2200

App. 89
Annabelle Harless
CAMPAIGN LEGAL CENTER
55 W. Monroe St., Ste. 1925
Chicago, IL 60603
aharless@campaignlegal.org
312.312.2885
Attorneys for Plaintiffs
*Application for general admission
in the Western District of
Wisconsin currently pending

App. 90

APPENDIX E

OFFICE OF THE CLERK
Supreme Court of Wisconsin
110 EAST MAIN STREET, SUITE 215
P.O. BOX 1688
MADISON, WI 53701-1688
TELEPHONE (608) 266-1880
FACSIMILE (608) 267-0640
Web Site: www.wicourts.gov
September 22, 2021
To:
Richard M. Esenberg
Anthony LoCoco
Lucas Thomas Vebber
Wisconsin Institute for
Law & Liberty
330 East Kilbourn Avenue,
Suite 725
Milwaukee, WI 53202-3141

Charles G. Curtis
Perkins Coie LLP
33 E. Main St., Ste. 201
Madison, WI 53703-5411
Adam K. Mortara
Bartlit, Beck, Herman,
Palenchar & Scott LLP
54 W. Hubbard St. #300
Chicago, IL 60610-4697

Karla Z. Keckhaver
Steven Killpatrick
*Address list continued on
Thomas C. Bellavia
Wisconsin Department of page 19.
Justice
P.O. Box 7857
Madison, WI 53707-7857

App. 91
You are hereby notified that the Court has entered the
following order:
No. 2021AP1450-OA
Johnson v. Wisconsin Elections Commission
On August 23, 2021, petitioners Billie Johnson, et
al., four Wisconsin voters who claim that the results of
the 2020 census show that Wisconsin’s congressional
and state legislative districts——including the voters’
districts——are malapportioned and no longer meet
the requirements of the Wisconsin Constitution, filed
a petition for leave to commence an original action
under Wis. Stat. § (Rule) 809.70, together with a
supporting memorandum. The petitioners ask, inter
alia, that we assume original jurisdiction, then “stay
this matter until the Legislature has adopted a new
apportionment plan” or if the legislative process fails,
that this court adopt a new apportionment plan.
On September 3, 2021, the named respondents,
Wisconsin Elections Commission, et al., filed a
response, opposing the petition, arguing primarily that
existing original jurisdiction procedures cannot
accommodate the fact-finding intensive requirements
of this case and noting that there are two cases pending
in federal district court that raise similar claims.1
On September 7, 2021, the court received motions
for leave to file a non-party brief/amicus curiae from:
(1) the Wisconsin Legislature; (2) Congressmen Glenn
Grothman, Mike Gallagher, Brian Steil, Tom Tiffany,
1

Hunter v. Bostelmann, No. 21-CV-512 (W.D. Wis. Aug. 13, 2021)
and Black Leaders Organizing for Communities v. Spindell, No.
21-CV-534 (W.D. Wis. Aug. 23, 2021).

App. 92
and Scott Fitzgerald; (3) Attorney Daniel R. Suhr;
(4) Lisa Hunter, et al. (plaintiffs in Hunter v.
Bostelmann, No. 21-CV-512 (W.D. Wis. Aug. 13, 2021));
and (5) Black Leaders Organizing for Communities, et
al. (plaintiffs in Black Leaders Organizing for
Communities v. Spindell, No. 21-CV-534 (W.D. Wis.
Aug. 23, 2021)). By order dated September 8, 2021, the
court granted each of these motions. The non-party
briefs and their appendices, if any, were accepted for
filing.
This court has long deemed redistricting challenges
a proper subject for the court’s exercise of its original
jurisdiction. See, e.g., Jensen v. Wisconsin Elections
Board, 2002 WI 13, ¶17, 249 Wis. 2d 706, 639 N.W.2d
537 (2002) (“there is no question” that redistricting
actions warrant “this court’s original jurisdiction; any
reapportionment or redistricting case is, by definition,
publici juris, implicating the sovereign rights of the
people of this state.”); State ex rel. Reynolds v.
Zimmerman, 22 Wis. 2d 544, 557, 126 N.W.2d 551
(1964) (observing that reapportionment “is vital to the
functioning of our government”).
We are mindful that judicial relief becomes
appropriate in reapportionment cases only when a
legislature fails to reapportion according to
constitutional requisites in a timely fashion after
having had an adequate opportunity to do so. See e.g.,
Zimmerman, 22 Wis. 2d at 570. We cannot emphasize
strongly enough that our Constitution places primary
responsibility for the apportionment of Wisconsin
legislative districts on the legislature. See Wis. Const.
art. IV §§ 3, 4. Redistricting plans must be approved by

App. 93
a majority of both the Senate and Assembly, and are
subject to gubernatorial veto. Id.; Wis. Const., art. V,
§ 10; Zimmerman, 22 Wis. 2d at 558 (recognizing that
the legislature must present redistricting legislation to
the governor for approval or veto under the Wisconsin
Constitution’s Presentment Clause; both the governor
and the legislature are indispensable parts of the
legislative process).
As the respondents observed, the petitioners do not
say how long this court should give the Legislature and
the Governor to accomplish their constitutional
responsibilities before the court would need to embark
on the task the petitioners have asked of us in order to
ensure its timely completion. We would benefit from
the parties’ input on this issue, and we would benefit
from the input of amici and prospective intervenors on
the issue as well. Accordingly,
IT IS ORDERED that the petition for leave to
commence an original action is granted;
IT IS FURTHER ORDERED that any prospective
intervenor must file a motion to intervene together
with a supporting memorandum addressing the
requirements of Wis. Stat. § (Rule) 809.09 no later than
4:00 p.m. on October 6, 2021;
IT IS FURTHER ORDERED that the parties, amici,
and proposed intervenors may each file a single
response to the collective motions to intervene no later
than 12:00 p.m. on October 13, 2021, provided that
amici who seek to intervene may file only a single
response to the proposed intervention motions, which
shall be filed in their capacity as amici. Each response

App. 94
shall not exceed 15 pages if a monospaced font is used
or 3,300 words if a proportional serif font is used;
IT IS FURTHER ORDERED that the parties and
prospective intervenors are each directed to submit
simultaneous letter briefs no later than 4:00 p.m. on
October 6, 2021, addressing the following question:
When (identify a specific date) must a new
redistricting plan be in place, and what key
factors were considered to identify this date?
Amici may, but are not required to file a response to
this question. The simultaneous letter briefs shall not
exceed 15 pages if a monospaced font is used or 3,300
words if a proportional serif font is used;
IT IS FURTHER ORDERED that the parties, each
amicus, and each proposed intervenor may file a single
response to the letter briefs addressing timing, which
shall not exceed 15 pages if a monospaced font is used
or 3,300 words if a proportional serif font is used, by no
later than 12:00 p.m. on October 13, 2021;
IT IS FURTHER ORDERED that if the court
determines that additional briefing or a reply will
assist the court, it will request additional briefing;
given the time sensitive nature of this action,
unsolicited briefing and requests for briefing extensions
will be disfavored;
IT IS FURTHER ORDERED that all filings in this
matter shall be filed as an attachment in pdf format to
an email addressed to clerk@wicourts.gov. See Wis.
Stat. §§ 809.14, 809.80, and 809.81. A paper original
and 10 copies of each filed document must be received

App. 95
by the clerk of this court by 4:00 p.m. of the business
day following submission by email, with the document
bearing the following notation on the top of the first
page: “This document was previously filed via email.”
We deem the petitioners’ other requests to be
premature. We decline to formally declare, at the onset,
that a new apportionment plan is needed. While the
parties and amici generally concur that this is true, we
have, as yet, an inadequate record before us upon
which to make such a pronouncement. We also decline
to stay this action at this time and we deny the
petitioners’ request that we enjoin the respondents
“from administering any election for Congressional,
State or Assembly seats” until a new plan is in place.
To the extent this order does not address other
requests for relief contained in the petition, we take no
action on those requests at this time.
REBECCA GRASSL BRADLEY, J. (concurring).
Nearly 150 years ago, shortly after statehood, this
court declared, “the purpose of the constitution was: ‘To
make this court indeed a supreme judicial tribunal over
the whole state; . . . a court of first resort on all judicial
questions affecting the sovereignty of the state, its
franchises or prerogatives, or the liberties of its
people.’” Petition of Heil, 230 Wis. 428, 436, 284 N.W.
42 (1938) (per curiam) (quoting Attorney Gen. v.
Chicago & N.W. Ry., 35 Wis. 425, 518 (1874))
(emphasis added). More recently, in 2002, we
unanimously declared in Jensen v. WEC, “[i]t is an
established constitutional principle in our federal
system that congressional reapportionment and state
legislative redistricting are primarily state, not federal

App. 96
prerogatives.” 2002 WI 13, ¶5, 249 Wis. 2d 706, 639
N.W.2d 537 (per curiam) (denying petition for leave to
commence an original action) (citations omitted)
(emphasis added). The United States Supreme Court
agrees: “[T]he Constitution leaves with the States
primary responsibility for apportionment of their
federal congressional and state legislative districts.”
Growe v. Emison, 507 U.S. 25, 34 (1993) (citing U.S.
Const. art. I, § 2)).
Consistent with the Constitution, “the Court has
required federal judges to defer consideration of
disputes involving redistricting where the State,
through its legislative or judicial branch, has begun to
address that highly political task itself.” Id. at 33; see
also id. at 34 (quoting Chapman v. Meier, 420 U.S. 1,
27 (1975)) (“We say once again what has been said on
many occasions: reapportionment is primarily the duty
and responsibility of the State through its legislature
or other body, rather than a federal court.”). “Absent
evidence that these state branches will fail to perform
that duty, a federal court must neither affirmatively
obstruct state reapportionment nor permit federal
litigation to be used to impede it.” Id. at 34; see also
Scott v. Germano, 381 U.S. 407, 409 (1965) (internal
citations omitted) (“The power of the judiciary of a
State to require valid reapportionment or to formulate
a valid redistricting plan has not only been recognized
by this Court but appropriate action by the States in
such cases has been specifically encouraged. The case
is remanded with directions that the District Court
enter an order fixing a reasonable time within which
the appropriate agencies of the State of Illinois,

App. 97
including its Supreme Court, may validly redistrict the
Illinois State Senate[.]”).
Spurning this longstanding precedent, including the
United States Supreme Court’s clear directive that
states are primarily responsible for redistricting, with
federal courts standing by only as a last resort, Growe,
507 U.S. at 33, Justice Rebecca Frank Dallet insists
this case belongs in federal court. It doesn’t. The
petitioners are Wisconsin voters who allege they live in
malapportioned districts. Following our unequivocal
statement in Jensen that “congressional
reapportionment and state legislative redistricting are
primarily state, not federal prerogatives,” they filed
this case against the Wisconsin Elections Commission
(WEC) and its commissioners in their official capacity,
expressly relying on Article IV of the Wisconsin
Constitution. It is primarily the duty of this court, not
any federal court, to resolve such redistricting disputes.
Although this court has punted its responsibilities
to the federal courts in the past, we have previously
exercised our original jurisdiction to hear redistricting
cases, and we have implemented a judicially-created
redistricting plan when the political branches have
reached an impasse. State ex rel. Reynolds v.
Zimmerman, 23 Wis. 2d 606, 128 N.W.2d 16 (1964) (per
curiam). See generally Michael Gallagher, Joseph
Kreye & Staci Duros, Redistricting in Wisconsin 2020,
at 20 (2020), https://docs.legis.wisconsin.gov/misc/lrb/
/wisconsin_elections_project/redistricting_wisc
onsin_2020_1_2.pdf (“Prior to the 1960s, redistricting
disputes in Wisconsin were typically filed with the
state supreme court under that court’s original

App. 98
jurisdiction. . . . [I]n pre-1960s redistricting cycles, the
Wisconsin Supreme Court would entertain challenges
to existing redistricting laws, and occasionally
invalidate redistricting plans it found
unconstitutional.”). Justice Dallet must misunderstand
the gist of our decision in Jensen if she actually
believes it stands for the proposition that this court
should abandon Wisconsin’s sovereign prerogative to
implement redistricting plans to federal courts. As
Justice Ann Walsh Bradley characterized Jensen
during a2009 administrative conference concerning
whether this court should establish rules to handle
redistricting petitions: “I start with [what] the
unanimous court said, in the Jensen case, noting the
established constitutional principle that redistricting is
primarily a state, not federal prerogative. That’s what
a unanimous court said. . . . I think that was correct
then, and I think it is correct now. . . . I see this as a
matter of doing your job.”2
While in Jensen we denied a petition for original
action requesting this court to consider redistricting
claims, our decision was driven by the timing of the
petition, which was filed on January 7, 2002. Jensen,
249 Wis. 2d 709, ¶1. By the time we denied the
petition, analogous federal litigation had been ongoing
for more than a year. Id., ¶13. The federal litigation
was “well along[.]” Id. We were concerned about
disrupting Wisconsin’s upcoming elections but
reaffirmed the long-established principle that this
2

Supreme Court Open Administrative Conference, at 39:36 (Jan.
22, 2009) (statement of Ann Walsh Bradley, J.) (emphasis added),
https://wiseye.org/2009/01/22/supreme-court-open-administrativeconference-3/.

App. 99
court should
redistricting:

decide

any

disputes

related

to

There is no question but that this matter
warrants this court’s original jurisdiction; any
reapportionment or redistricting case is, by
definition, publici juris, implicating the
sovereign rights of the people of this state. See
Petition of Heil, 230 Wis. 428, 443, 284 N.W. 42
(1939). The people of this state have a strong
interest in a redistricting map drawn by an
institution of state government—ideally and
most properly, the legislature, secondarily, this
court. Growe unequivocally reaffirmed that the
principles of federalism and comity establish the
institutions of state government—legislative and
judicial—as primary in matters of
reapportionment and redistricting. Had our
jurisdiction been invoked earlier, the public
interest might well have been served by our
hearing and deciding this case. As it stands, it is
not.
Id., ¶17 (emphasis added). Justice Dallet does not
acknowledge this key factual distinction between this
petition and the one in Jensen. As then-Chief Justice
Shirley Abrahamson explained: “[I]n Jensen, we said
‘no’ for the reasons set forth, but it wasn’t a
jurisdictional matter. It was a discretionary matter
based on the facts and circumstances.”3 None of the
facts or circumstances inducing denial of the Jensen
petition warrant leaving our responsibilities to the
federal courts this time. The two federal cases were
3

Id. at 1:03:03 (statement of Shirley S. Abrahamson, C.J.).

App. 100
filed just a few weeks ago, and they are far from “well
along.”
Justice Dallet criticizes the petitioners for bringing
this dispute “prematurely” and “inject[ing] the court
into the political process[.]” By contrast, in rejecting an
original action filed against the WEC last year,
she—along with a majority of this court—faulted the
petitioner for nothing more than a negligible delay,
speculating it would disrupt the election. Hawkins v.
WEC, 2020 WI 75, ¶5, 393 Wis. 2d 629, 948 N.W.2d 877
(per curiam) (denying petition for leave to commence
an original action) (“Although we do not render any
decision on whether the respondents have proven that
the doctrine of laches applies under these
circumstances, having considered all of the parties’
filings, we conclude the petitioners delayed in seeking
relief in a situation with a very short deadline and that
under the circumstances, including the fact that the
fall 2020 general election has essentially begun, it is
too late to grant petitioners any form of relief that
would be feasible and not cause confusion and undue
damage to both the Wisconsin electors who want to
vote and the other candidates in all of the various races
on the general election ballot.”); id., ¶86 (Rebecca
Grassl Bradley, J., dissenting from denial of petition
for leave to commence an original action) (“The
majority pretends the court lacks ‘sufficient time to
complete our review and award any effective relief.’
What nonsense. Wisconsin law unquestionably requires
that Mr. Hawkins and Ms. Walker appear on the
ballot.”).

App. 101
A federal court just rejected the argument that
Justice Dallet embraces in this case. Two similar
lawsuits were filed in federal court and recently
consolidated.4Just last week, the federal court denied
a motion by the Wisconsin Legislature to dismiss the
case for lack of ripeness. It wrote:
The Legislature . . . says that the . . . plaintiffs’
injuries are purely speculative because the
legislative redistricting process has not yet had
a chance to fail. Dkt. 9-2. In making these
arguments the Legislature relies heavily on
Growe v. Emison, a case in which the [United
States] Supreme Court held that a federal
three-judge panel had erred in not deferring to
the Minnesota courts’ redistricting efforts and by
enjoining the state courts from implementing
their own plans. 507 U.S. 25, 37 (1993) (“What
occurred here was not a last-minute federal
court rescue of the Minnesota electoral process,
but a race to beat the [state courts’] Special
Redistricting Panel to the finish line.”). . . .
This court understands the state government’s
primacy in redistricting its legislative and
congressional maps. . . . But the Growe Court
did not conclude that the federal case was
unripe . . . . And this panel is not impeding or
superseding any concurrent state redistricting
process, steps that that [sic] might run afoul of
Growe.
4

Black Leaders Organization for Communities v. Spindell, No.
21-CV-534 (W.D. Wis. Aug. 23, 2021); Hunter v. Bostelmann, No.
21-CV-512 (W.D. Wis. Aug. 13, 2021).

App. 102
....
These parties argue that the panel should
forestall from any action until the state court
system hears the case. But there is yet no
indication that the state courts will entertain
redistricting in the face of an impasse between
the legislature and governor. . . . The court and
the parties must prepare now to resolve the
redistricting dispute, should the state fail to
establish new maps in time for the 2022 election.
Hunter v. Bostelmann, Nos. 21-CV-512 & 21-CV-534,
slip op., at 6–8 (W.D. Wis. Sept. 16, 2021). By granting
this petition, we now inform the federal court that we
“will entertain redistricting in the face of an impasse
between the legislature and governor[,]” recognizing, as
the federal court does, that both this “court and the
parties must prepare now to resolve the redistricting
dispute” in order to ensure resolution “in time for the
2022 election.” If instead we chose to sit idly by, the
federal courts would logically interpret our inaction as
a sign that we would not act should the political

App. 103
branches reach an impasse.5 As a matter of comity,6 we
owe the federal courts an answer on how we plan to
proceed, and we furnish that answer by granting this
petition.
Justice Dallet argues federal courts have “done this
[redistricting] three times” but since 1964, “we have
never done it.” This court, however, resolved
redistricting challenges on numerous occasions before
1964.7 Even if we had not, Justice Dallet’s rationale
5

Justice Dallet asserts “by granting the petition now, the court
fails to give space for the legislature to fulfill its constitutional
duties.” The legislature itself apparently disagrees, having filed an
amicus brief in support of the petition. It contends the plaintiffs in
the federal cases “raced to the federal courthouse. . . . These
[federal] cases threaten to usurp the State’s primacy in
redistricting. . . . To protect the State’s constitutional prerogative
in redistricting and to prevent federal interference, the Court
should exercise original jurisdiction over this action.” Legislature’s
Amicus Br. at 6–7.

6

Comity, Garner’s Dictionary of Legal Usage (3d ed. 2011) (“comity
= courtesy among political entities (as nations or courts of different
jurisdictions)[.]”).

7

Michael Gallagher, Joseph Kreye & Staci Duros, Redistricting in
Wisconsin 2020, at 40–54 (2020), https://docs.legis.wisconsin.gov/
misc/lrb/wisconsin_elections_project/redistricting_wi
sconsin_2020_1_2.pdf (discussing several redistricting cases in
which this court exercised its original jurisdiction: (1) State ex rel.
Attorney General v. Cunningham, 81 Wis. 440, 51 N.W. 724 (1892);
(2) State ex rel. Lamb v. Cunningham, 83 Wis. 90, 53 N.W. 35
(1892); (3) State ex rel. Bowman v. Dammann, 209 Wis. 21, 243
N.W. 481 (1932); (4) State ex rel. Broughton v. Zimmerman, 261
Wis. 398, 52 N.W.2d 903 (1952); (5) State ex rel. Reynolds v.
Zimmerman, 22 Wis. 2d 544, 126 N.W.2d 551 (1964); (6) State ex
rel. Reynolds v. Zimmerman, 23 Wis. 2d 606, 128 N.W.2d 16 (1964)
(per curiam)); see also Supreme Court Open Administrative
Conference, supra note 1, at 41:56 (statement of Ann Walsh

App. 104
offers flimsy support for her conclusion to deny this
petition—it is a self-fulfilling prophecy. We should not
abrogate our duty now just because we have done so in
the past.
Justice Dallet is convinced the issues presented in
the petition will require substantial factual
development. Perhaps, although she seems to be
making some assumptions about ultimate remedies,
which is putting “the cart before the horse[.]” Wis.
Voter Alliance v. WEC, No. 2020AP1930-OA,
unpublished dispositional order, at 4 (Roggensack, C.J.,
dissenting from denial of petition for leave to
commence an original action). “We grant petitions to
exercise our jurisdiction based on whether the legal
issues presented are of state wide concern, not based on
the remedies requested.” Id. (citing Heil, 230 Wis. 428).
The respondents suggest that if we decide to implement
a judicially-created redistricting plan, we will have to
start from scratch—a position Justice Dallet seems to
Bradley, J.) (“I look at our history since 1920, and in 1920 the
districts were reapportioned by the legislature. In the 1930s, it
went into state court. [Bowman]. In the 1940s, it again went into
state court. [Martin v. Zimmerman, 249 Wis. 101, 23 N.W.2d 610
(1946) (denying petition for leave to commence original
action)] . . . . In the 50s, it went into state court in [Broughton],
and a couple of other cases in the 50s. In the 60s, it went into both
the federal and state court in [Wisconsin v. Zimmerman, 205 F.
Supp. 673 (W.D. Wis. 1962)] and [Reynolds]. In the 70s, after the
1970 census, the reapportionment legislation was not challenged.
1971 law, chapter 304. 1980s it went into the federal court in
[AFL-CIO v. Elections Board, 543 F. Supp. 630 (1982)] . . . . In the
90s it went into the federal court, and again we know [Jensen v.
WEC, 2002 WI 13, 249 Wis. 2d 706, 639 N.W.2d 537 (per curiam)
(denying petition for leave to commence an original action)] in the
2000s it went into . . . federal court and state court.”).

App. 105
accept. While that may be one option, federal courts
often start with the existing plan and use it “as a
template[.]” Baumgart v. Wendelberger, No. 01-C-0121,
2002 WL 34127471, at *7 (E.D. Wis. May 30, 2002); see
also Hippert v. Ritchie, 813 N.W.2d 374, 380 (Minn.
Spec. Redistricting Panel 2012) (quoting LaComb v.
Growe, 541 F. Supp. 145, 151 (D. Minn. 1982))
(“Because courts engaged in redistricting lack the
authority to make the political decisions that the
Legislature and the Governor can make through their
enactment of redistricting legislation, the panel utilizes
a least-change strategy where feasible.”).
Justice Dallet may be confusing a one person, one
vote claim with a partisan gerrymandering claim,
which the United States Supreme Court has declared
nonjusticiable in the federal courts. “[T]he one-person,
one-vote rule is relatively easy to administer as a
matter of math. The same cannot be said of partisan
gerrymandering claims, because the Constitution
supplies no objective measure for assessing whether a
districting map treats a political party fairly.” Rucho
v. Common Cause, 139 S. Ct. 2484, 2501 (2019). For
this reason, among others, the United States Supreme
Court has
concluded that partisan gerrymandering claims
present political questions beyond the reach of
the federal courts. Federal judges have no
license to reallocate political power between the
two major political parties, with no plausible
grant of authority in the Constitution, and no
legal standards to limit and direct their
decisions. “[J]udicial action must be governed by

App. 106
standard, by rule,” and must be “principled,
rational, and based upon reasoned distinctions’
found in the Constitution or laws. Judicial
review of partisan gerrymandering does not
meet those basic requirements.”
Id. at 2506–07 (quoting Vieth v. Jubelirer, 541 U.S.
267, 278, 279 (2004) (plurality opinion)).
Nevertheless, the court may use existing
mechanisms should Justice Dallet’s concern become
reality. See State ex rel. Ozanne v. Fitzgerald, 2011 WI
43, ¶148, 334 Wis. 2d 70, 798 N.W.2d 436 (Crooks, J.,
concurring/dissenting) (quotations omitted) (“There are
mechanisms which have been utilized, such as
appointment of a special master, perhaps a reserve
judge, to conduct fact-finding under the continued
jurisdiction/supervision of this court.”). “[W]hen the
legal issue that we wish to address requires it, we have
taken cases that do require factual development,
referring any necessary factual determinations to a
referee or to a circuit court.” Wis. Voter Alliance, No.
2020AP1930-OA, at 4 (Roggensack, C.J., dissenting
from denial of petition for leave to commence an
original action) (citations omitted). Justice Dallet does
not explain why these mechanisms do not present
viable options, should the need arise for fact-finding.
Next, Justice Dallet misinterprets our statutes by
asserting we are “circumvent[ing] the statutory process
for addressing redistricting challenges.” Wisconsin
Stat. § 801.50(4m) (2019–20) provides:
Venue of an action to challenge the
apportionment of any congressional or state

App. 107
legislative district shall be as provided in
s. 751.035. Not more than 5 days after an action
to challenge the apportionment of a
congressional or state legislative district is filed,
the clerk of courts for the county where the
action is filed shall notify the clerk of the
supreme court of the filing.
(Emphasis added). This statute governs only a case
filed in the circuit court, not an original action filed in
this court. Wisconsin Stat. § 751.035 provides:
Upon receiving notice under s. 801.50 (4m), the
supreme court shall appoint a panel consisting
of 3 circuit court judges to hear the matter. The
supreme court shall choose one judge from each
of 3 circuits and shall assign one of the circuits
as the venue for all hearings and filings in the
matter.
Collectively, these statutes prevent a single judge in a
single county from deciding—at least in the first
instance—important redistricting questions of
statewide importance. They have no bearing on the
present petition.
More fundamentally, Justice Dallet misunderstands
the nature of our original jurisdiction. She inaccurately
asserts “the legislature has established a specific
process for resolving redistricting claims, and we
should not allow the parties to ignore it” while also
acknowledging “nothing necessarily prevent[s] us from
granting” this petition. The Wisconsin Constitution
establishes our original jurisdiction. Article VI, § 3(2)
states, “[t]he supreme court . . . may hear original

App. 108
actions and proceedings.” This grant of original
jurisdiction has been described as “extraordinarily
broad”8 and “practically unlimited in scope.”9 In
contrast, Article VII, § 5(3), which established the court
of appeals’ subject matter jurisdiction, provides: “The
appeals court shall have such appellate jurisdiction in
the district, including jurisdiction to review
administrative proceedings, as the legislature may
provide by law[.]” (Emphasis added). The text of our
constitution is clear: “No statute . . . can circumscribe
the constitutional jurisdiction of the Wisconsin
Supreme Court to hear this (or any) case as an original
action. ‘The Wisconsin Constitution IS the law—and it
reigns supreme over any statute.’” Trump v. Evers, No.
2020AP1971-OA, unpublished dispositional order, at
5–6 (Wis. Dec. 3, 2020) (Rebecca Grassl Bradley, J.,
dissenting from denial of petition for leave to
commence an original action) (quoting Wisconsin Legis.
v. Palm, 2020 WI 42, ¶67 n.3, 391 Wis. 2d 497, 942
N.W.2d 900 (Rebecca Grassl Bradley, J., concurring));
see also Skylar Reese Croy, As I See It: Examining the
Supreme Court’s Original Jurisdiction, Wis. Law.
July-Aug. 2021, at 30, 32, https://www.wisbar.org/News
Publications/WisconsinLawyer/Pages/Article.aspx?Vo
lume=94&Is sue=7&ArticleID=28514 (“Several sources
support the proposition that the Wisconsin Supreme

8

Skylar Reese Croy, As I See It: Examining the Supreme Court’s
Original Jurisdiction, Wis. Law. July-Aug. 2021, at 30, 31,
https://www.wisbar.org/NewsPublications/WisconsinLawyer/Pag
es/Article.aspx?Volume=94&Is sue=7&ArticleID=28514.
9

Jay E. Grenig, 1 Wisconsin Pleading and Practice Forms § 2:34
(2020).

App. 109
Court’s original jurisdiction cannot be limited by
statute.”).
***
This court remains mindful of the political nature of
redistricting, the responsibility for which rests with the
people’s elected representatives in the legislature. In
Jensen, we explained:
[R]edistricting remains an inherently political
and legislative—not judicial—task.
Courts
called upon to perform redistricting are, of
course, judicially legislating, that is, writing the
law rather than interpreting it, which is not
their usual—and usually not their proper—role.
Redistricting determines the political landscape
for the ensuing decade and thus public policy for
years beyond. The framers in their wisdom
entrusted this decennial exercise to the
legislative branch because the give-and-take of
the legislative process, involving as it does
representatives elected by the people to make
precisely these sorts of political and policy
decisions, is preferable to any other.
Jensen, 249 Wis. 2d 706, ¶10. However, we have also
recognized that “[t]he Wisconsin Constitution sets forth
standards for redistricting” and “there is no reason for
Wisconsin citizens to have to rely upon the federal
courts for the indirect protection of their state
constitutional rights.” Id., ¶¶6, 8 (quoted source
omitted). Because “this court is the final arbiter of
questions arising under the Wisconsin Constitution” it
must “stand ready to carry out its responsibility to
faithfully adjudicate any such questions in appropriate

App. 110
circumstances, should that become necessary.” Id., ¶25
(citation omitted).
Since Jensen, and after this court declined in 2009
to establish procedures for resolving redistricting
actions, the United States Supreme Court removed
political questions—such as partisan gerrymander
claims—from federal judicial review, denying federal
judges any “license to reallocate political power
between the two major political parties[.]” Rucho, 139
S. Ct. at 2507. This circumscription of the judicial role
in redistricting challenges to the interpretation and
application of law should alleviate any concerns about
the courts exercising anything but judicial power in
these matters.10
In a perfect world, the political branches—not the
judiciary—would implement a redistricting plan after
every decennial census. Our precedent says the
legislature can enact a redistricting plan only if the
10

Justice Dallet cites League of Women Voters v. Pennsylvania,
178 A.3d 737 (Pa. 2018) for the proposition that “claims of partisan
gerrymandering are cognizable under the Pennsylvania
Constitution[.]” Why this matters is unclear. Additionally, she fails
to mention that the Pennsylvania Constitution contains a Free and
Equal Elections Clause; no analogous provision exists in the
Wisconsin Constitution. This clause states: “Elections shall be free
and equal; and no power, civil or military, shall at any time
interfere to prevent the free exercise of the right of suffrage.” Pa.
Const. art. I, § 5. In League of Women Voters, the Pennsylvania
Supreme Court held partisan gerrymandering claims were
justiciable under that particular provision. 178 A.3d at 813–14.
The court went so far as to note that claims under the Fourteenth
Amendment’s Equal Protection Clause are “distinct” and “remain
subject to entirely separate jurisprudential considerations.” Id. at
813.

App. 111
plan is subject to presentment. State ex rel. Reynolds
v. Zimmerman, 22 Wis. 2d 544, 559, 126 N.W.2d 551
(1964); see State ex rel. Broughton v. Zimmerman, 261
Wis. 398, 407–08, 52 N.W. 93 (1952), overruled in part
by Reynolds, 22 Wis. 2d 544 (“The power and duty
imposed upon the legislature by the constitution to
reapportion the state after each federal census can only
be exercised by both the houses of the legislature
passing a bill that becomes a law upon the signature of
the governor, or, if the governor should veto it, upon
repassage by the required vote over his veto, and
publication.”); see also State ex rel. Cunningham v.
Attorney General, 81 Wis. 440, 506, 51 N.W. 724 (1892)
(Pinney, J., concurring) (“[B]y an unbroken usage
extending from the organization of the state, more than
40 years ago, . . . [the power of apportioning and
redistricting] has been used and exercised as a
legislative power executed in the form of a law,
approved by the governor, and published in the
General Laws.”). In a state with a history of divided
government, our precedent has created a constitutional
conundrum.
Under the United States Constitution, states are
effectively required to redistrict after every decennial
census to comply with a principle commonly called “one
person, one vote.”11 Similarly, Article IV, Section 3 of
11

Article I, § 2 of the United States Constitution requires members
of the House of Representatives to be chosen “by the People of the
several states.” The United States Supreme Court has construed
this section to mean “that as nearly as practicable one man’s vote
in a congressional election is to be worth as much as another’s.”
Wesberry v. Sims, 376 U.S. 1, 7–8 (1964). Under the Fourteenth
Amendment’s Equal Protection Clause, the Court has articulated

App. 112
the Wisconsin Constitution states: “At its first session
after each enumeration made by the authority of the
United States, the legislature shall apportion and
district anew the members of the senate and assembly,
according to the number of inhabitants.” Applying our
precedent to redistricting disputes arising during a
time of divided government, the political branches can
quickly reach an impasse if the legislature passes a
redistricting plan and the governor vetoes it. Courts
then face a choice: On one hand, the court can avoid the
“political thicket”12 by refusing to do anything. This
course of action prevents the judiciary from exercising
powers vested in the political branches but it has a
remarkable drawback: It allows inequality in the
political process to go unchecked. As Justice Ann Walsh
Bradley has explained, “[a]lthough . . . separation of
powers is a cornerstone of our democracy, so is equal
a similar requirement for state legislative districts. Reynolds v.
Sims, 377 U.S. 533, 577 (1964) (“By holding that as a federal
constitutional requisite both houses of a state legislature must be
apportioned on a population basis, we mean that the Equal
Protection Clause requires that a State make an honest and good
faith effort to construct districts, in both houses of its legislature,
as nearly of equal population as is practicable.”); see also Maryland
Committee for Fair Representation v. Tawes, 377 U.S. 656, 674–75
(1964) (holding even state senate districts must comply with one
person, one vote).
12

Colegrove v. Green, 328 U.S. 549, 556 (1946) (plurality opinion),
abrogation recognized by Evenwel v. Abbott, 577 U.S. 937 (2016)
(“Courts ought not to enter this political thicket. The remedy for
unfairness in districting is to secure State legislatures that will
apportion properly, or to invoke the ample powers of Congress. The
Constitution has many commands that are not enforceable by
courts because they clearly fall outside the conditions and purposes
that circumscribe judicial action.”).

App. 113
representation.”13 Alternatively, courts can enter the
thicket.
Since the 1890s, this court has often chosen the
latter course. In State ex rel. Attorney General v.
Cunningham, we stated, while discussing restrictions
on the legislature’s redistricting power:
The right of the people to make their own laws
through their own representatives, so
fundamental in and essential to free
government, the convention sought to guard by
these restrictions. That most dangerous
doctrine, that these and other restrictions upon
the power of the legislature are merely
declaratory, and not mandatory, should not be
encouraged even to the degree of discussing the
question. The convention, in making a
constitution, had a higher duty to perform than
to give the legislature advice.
81 Wis. at 485 (majority opinion) (emphasis added). We
concluded, “the restrictions on the power of the
legislature to make apportionment, found in sections 3,
4, and 5 of article 4 of the constitution are mandatory
and imperative, not subject to legislative discretion.”
Id. at 486 (emphasis added). We also emphasized “the
judicial power to declare . . . [an] apportionment act
unconstitutional, and to set it aside as absolutely
void[.]” Id. It remains the province of the judiciary to
declare, in cases presented to us, the constitutional

13

Supreme Court Open Administrative Conference, supra note 1,
at 40:50 (statement of Ann Walsh Bradley, J.).

App. 114
obligations of (and limitations on) the other branches of
government.
In Wisconsin’s modern history, redistricting has
primarily fallen to the judiciary. In Jensen we noted,
“in the four decades since Baker v. Carr . . . and
Reynolds v. Sims . . . the matter of redistricting has
been resolved by the legislature without court
involvement exactly once, in 1972.” 249 Wis. 2d 706,
¶7. We have a history of letting federal courts handle
these matters, perhaps because it removes us from the
thicket of political conflicts. Our job, however, is not to
avoid controversy but to declare the law. See State v.
Hermman, 2015 WI 84, ¶156, 364 Wis. 2d 336, 867
N.W.2d 772 (Ziegler, J., concurring) (quoting John G.
Roberts, Chief Justice, U.S. Supreme Court, 2011
Year–End Report on the Federal Judiciary, at 9 (Dec.
31, 2011), http://www.supremecourt.gov/publicinfo/year
-end/2011year-endreport.pdf)). After all, “[o]ur
fundamental role is to pass on the constitutionality [of
laws].”14
“Elections are the foundation of American
government and their integrity is of such monumental
importance that any threat to their validity should
trigger not only our concern but our prompt action.”
Trump, No. 2020AP1971-OA, at 5 (Rebecca Grassl
Bradley, J., dissenting from denial of petition for leave
to commence an original action) (quoted source
omitted). Redistricting ensures fair elections by
preserving constitutionally-guaranteed equal
representation for the people. See James Wilson
Lectures on Law (1791), in 2 Collected Works of James
14

Id. at 45:32 (statement of Ann Walsh Bradley, J.).

App. 115
Wilson 837 (2007) (“[A]ll elections ought to be equal.
Elections are equal, when a given number of citizens,
in one part of the state, choose as many
representatives, as are chosen by the same number of
citizens, in any other part of the state. In this manner,
the proportion of representatives and of constituents
will remain invariably the same.”). It is beyond
question that “the court has the power to declare a
legislative plan constitutional or unconstitutional. The
court has the power, . . . on a legal finding of
unconstitutionality, to draw lines and exercise its
constitutional function of equal representation.”15
Fundamentally, this court has a duty to resolve
redistricting disputes; doing so does not threaten the
separation of powers nor does it risk a concentration of
power in the judicial branch:
[T]he courts were designed to be an intermediate
body between the people and the legislature in
order, among other things, to keep the latter
within the limits assigned to their authority.
The interpretation of the laws is the proper and
peculiar province of the courts. A constitution is,
in fact, and must be regarded by the judges, as
a fundamental law. It therefore belongs to them
to ascertain its meaning, as well as the meaning
of any particular act proceeding from the
legislative body.
The Federalist No. 78, at 467 (Alexander Hamilton)
(Clinton Rossiter ed. 1961). While some may wish to
“let this cup pass” this is “our job . . . . Let’s do our
15

Id. at 1:42:23 (statement of Shirley S. Abrahamson, C.J.).

App. 116
job.”16For all of these reasons, I concur with the court’s
decision to grant this petition.
REBECCA FRANK DALLET, J. (dissenting). As is
often the case with original-jurisdiction petitions, the
question is not whether we can grant the petition but
whether we should. After the political process has an
opportunity to play out, we may need to get involved in
redistricting. But now is not the time and this petition
is not the way. The majority’s order prematurely injects
the court into the political process, risks undermining
the court’s independence, and circumvents the
statutory process for addressing redistricting
challenges. The court should therefore deny the
petition. I dissent.
There are good reasons for the court to avoid
inserting itself into the redistricting process at all.
Under the Wisconsin Constitution, it is the legislature’s
duty, not the court’s, to pass a redistricting plan after
each national census.17 See, e.g., Wis. Const. arts. IV,
VII; see also James Madison, The Federalist No. 47
(1788) (explaining the heightened threat to citizens’
liberty when the judiciary acts as the legislature).
Indeed, avoiding usurping the legislature’s role is an
important reason the court has stayed out of previous
redistricting battles. See Jensen v. Wis. Elections Bd.,
2002 WI 13, ¶10, 249 Wis. 2d 706, 639 N.W.2d 537
16

Id. at 45:36 (statement of Ann Walsh Bradley, J.) (emphasis
added).

17

“At its first session after each enumeration made by the
authority of the United States, the legislature shall apportion and
district anew the members of the senate and assembly, according
to the number of inhabitants.” Wis. Cont. art. IV, §3.

App. 117
(“Courts called upon to perform redistricting are, of
course, judicially legislating, that is, writing the law
rather than interpreting it, which is not their
usual—and usually not their proper—role.”(emphasis
omitted)). As Chief Justice Ziegler and Justice
Roggensack have noted, should the court take control
of the redistricting process, the court would
impermissibly transform itself into a
“super-legislature”18 by “insert[ing itself] into the
actual lawmaking function.”19 See also, e.g., id., ¶10
(“The framers in their wisdom entrusted this decennial
exercise [of redistricting] to the legislative branch
because the give-and-take of the legislative process,
involving as it does representatives elected by the
people to make precisely these sorts of political and
policy decisions, is preferable to any other.”).
Redistricting is, in other words, an inherently
political and partisan endeavor. Yet the court must
strive to be apolitical—or at least nonpartisan. Both
current and former members of the court have
explained that it “would be a mistake” to “immerse[ the
court] in the partisan political process”20 of redistricting
because doing so “is totally inconsistent with our jobs
as [a] nonpartisan judiciary.”21 Those apt observations
ring even truer today given Wisconsin’s hyper-partisan
politics.
18

https://wiseye.org/2009/01/22/supreme-court-open-administrative
-conference-3/.
19

Id.

20

Id. (Justice Gableman).

21

Id. (Justice Roggensack).

App. 118
That said, there are times when a court must
become involved in redistricting. If the legislature fails
to fulfill its constitutional duty by either enacting no
new district maps or enacting unconstitutional maps,
then the voters may turn to the courts to vindicate the
right to vote in equally populated districts that are
“convenient [and] contiguous” and “as compact . . . as
practicable”. See Wis. Const. art. IV, §§ 2-5; Jensen,
249 Wis. 2d 706, ¶¶7–11. Here, the legislature has not
even proposed, let alone enacted, new district maps.
The political process has not failed; it has barely
started. The majority recognizes as much, explaining
that the court should involve itself in redistricting only
after the legislature has had an “adequate opportunity”
to act. Yet by granting the petition now, the court fails
to give space for the legislature to fulfill its
constitutional duties.22 We should let this political
process play out in the political branches.
Of course, if the political process fails, then courts
have a role to play. Either state or federal courts may
hear redistricting challenges, although there are some
such challenges that only a state court can hear. For
instance, while the federal courts have held that
partisan gerrymandering claims are nonjusticiable
under the federal constitution, Rucho v. Common
Cause, 139 S. Ct. 2484, 2506–07 (2019), it is up to state
courts to determine whether the same is true under
22

The legislature made these same points in arguing for the
dismissal of a redistricting action in federal court, pointing out
that such litigation is “wildly premature” because the legislature’s
process is barely underway. See Hunter v. Bostelmann, No.
3:21-cv-512-jdp-ajs-eec (W.D. Wis. Aug. 17, 2021), ECF No. 9-3, at
6–7.

App. 119
their state constitutions. See id. at 2507; see also
League of Women Voters v. Pennsylvania, 178 A.3d
737, 814, 821 (Pa. 2018) (holding that claims of
partisan gerrymandering are cognizable under the
Pennsylvania Constitution and striking down the
state’s Congressional map on that basis). We have
never addressed whether partisan gerrymandering
may violate the Wisconsin Constitution, and, so far, no
party has raised such a claim here.
For other redistricting claims, there are several
reasons why it is best for the federal courts to handle
them, particularly when they involve federal law. First,
since the United States Supreme Court revolutionized
the law on redistricting in Reynolds v. Sims, 377 U.S.
533 (1964), the federal courts have “done this
[redistricting] three times.”23 See Baumgart v.
Wendelberger, No. 01-C-0121, 2002 WL 34127471 (E.D.
Wis. May 30, 2002); Prosser v. Elections Bd., 793 F.
Supp. 859 (E.D. Wis. 1992); Wis. State AFL-CIO v.
Elections Bd., 543 F. Supp. 630 (E.D. Wis. 1982). PostReynolds, we have never done it. The last time we drew
district maps was in May 1964, before Reynolds was
decided. See State ex rel. Reynolds v. Zimmerman, 23
Wis. 2d 606 (1964). Second, the federal courts have
experience with the unique complexities of federal
Voting Rights Act claims, the resolution of which is
23

https://wiseye.org/2009/01/22/supreme-court-open-administrative
-conference-3/ (Chief Justice Ziegler). In 2008, Justice Prosser
promised to vote “every time” against granting an original action
related to redistricting. See https://wiseye.org/2008/04/08/supreme
-court-rules-hearing-and-open-administrative-conference-part-3of-4/. Instead, he would “let [the parties] go to the federal court.”
Id.

App. 120
“integral to the drawing of statewide maps.” See, e.g.,
Hunter v. Bostelmann, No. 3:21-cv-00512-jdp-ajs-eec
(W.D. Wis. Sept. 16, 2021), ECF No. 60, at 5. We have
no such experience. Third, unlike this court, the federal
courts are made up of judges serving lifetime
appointments, so they are “not . . . apt to be seen as
partisans when they do the job of redistricting.”24
Finally, the federal courts will likely have the last word
anyway. Whatever plan the legislature or this court
adopts, it will be subject to challenge in a separate
action filed in federal court and appealable to the
United States Supreme Court. See Jensen, 249 Wis. 2d
706, ¶16. Thus, any new district maps will be final only
after the completion of both direct and collateral review
in federal courts, raising the specter of further
uncertainty and delay. See id. (“At best, such a scenario
would delay and disrupt the [upcoming] election
season . . . .”).
Despite all of the reasons for preferring a federal
forum, this court has chosen to step in via our original
jurisdiction. But the legislature has established a
specific process for resolving redistricting claims, and
we should not allow the parties to ignore it. Following
the last round of redistricting, the legislature enacted
Wis. Stat. §§ 751.035 and 801.50(4m). See 2011 Wis.
Act 39, §§ 28, 29. Under those statutes, a party may file
a challenge to legislative or congressional
apportionment in the circuit court. The circuit court
must notify this court of that filing, at which point we
are required to appoint a panel of three circuit court
24

https://wiseye.org/2009/01/22/supreme-court-open-administrative
-conference-3/ (Justice Roggensack).

App. 121
judges to hear the case. Parties may appeal the panel’s
decisions to this court, but not to the court of appeals.
§ 751.035(3). This process mirrors the federal one,
under which redistricting challenges are typically
heard by a three-judge district court, whose decisions
are appealable only to the United States Supreme
Court. See generally 28 U.S.C. §§ 1253, 2284. The
process under §§ 751.035 and 801.50(4m), like the welltested federal process, thus ensures swift appellate
review of the panel’s work while delegating to trial
judges traditional trial-court tasks, such as motion
practice and fact finding.
There is little doubt that substantial motion
practice and extensive fact finding will be necessary in
a case like this one. Both federal law and the Wisconsin
Constitution require that any court-ordered
redistricting plans account for many competing
interests, among them are:
• minimizing district changes (sometimes called
“core retention”);
• population equality;
• “compactness”;
• maintaining traditional communities of interest;
• avoiding splitting municipal or ward boundaries;
• compliance with the federal Voting Rights Act;
and
• minimizing so-called “disenfranchisement,”
which occurs when voters are shifted from oddto even-numbered senate districts, thus
temporarily depriving them of a vote for a state
senator.

App. 122
See, e.g., Baumgart, 2002 WL 34127471, at *3. The list
makes clear that, while the one-person-one-vote
principle maybe” relatively easy to administer as a
matter of math,” see Rucho, 139 S. Ct. at 2501, it gets
much more complicated after that. “Population
equality” is but one of the myriad fact-intensive and
often countervailing factors courts must balance. Not to
mention that “there is a nearly infinite set of district
configurations that would generate approximate
population equality across districts, and no one
supposes that a court should be indifferent among all
members of the set.” See Prosser, 793 F. Supp. at 863.
Courts must therefore balance the population-equality
factor against many others, a task that requires
extensive fact finding and consideration of experts’ and
other witnesses’ testimony. Simply put, it requires a
trial court, which we are “obviously not.” See Jensen,
249 Wis. 2d 706, ¶20 (adding that “our current original
jurisdiction procedures would have to substantially
modified in order to accommodate the requirements” of
redistricting litigation).
We need only look to the last court-ordered
redistricting of Wisconsin to appreciate the arduous
task the court likely faces. There, a three-judge district
court considered sixteen plans suggested by a variety
of parties. See Baumgart, 2002 WL 34127471, at *4–7.
It ultimately adopted none of them because each had
“unredeemable flaws.” See id. at *6. The federal court
had to create its own plan, which “involved some
subjective choices,” such as deciding “which
communities to exclude from overpopulated districts
and to include in underpopulated districts.” Id. at *7.
In doing so, the court relied on the parties’ affidavits,

App. 123
expert testimony, and testimony at a multi-day trial in
which the parties “vigorously” disputed several factual
questions. See id. at *4, *7. In the end, the court spelled
out—in a discussion spanning more than twenty pages
and delving down to the ward level—the precise
districts across the entire state. See id. at *8–31.
Baumgart demonstrates that courts addressing
redistricting challenges inevitably face myriad factual
questions, questions we are ill equipped to handle as a
court of last resort. See Jensen, 249 Wis. 2d 706, ¶20.
This court’s proper role—to resolve complex legal
issues involving undisputed facts—is accounted for in
Wis. Stat. §§ 751.035 and 801.50(4m), which reserve
fact-finding for the circuit court and appellate review
for this court. The majority offers no rationale for
ignoring this workable process.
The majority’s resort to Jensen fails to justify
exercising our original jurisdiction here. Indeed, Jensen
counsels squarely against it, seeing as there are two
ongoing consolidated federal redistricting cases. Just
last week, the three-judge district court declined to
dismiss those cases. See Hunter, No. 3:21-cv-512jdp-ajs-eec (W.D. Wis. Sept. 16, 2021), ECF No. 60, at
9. Moving forward, the court suggested that although
it may impose a “limited stay” to let the state process
run its course, it would also set a “schedule that will
allow for the timely resolution of the case should the
state process languish or fail.” Id. at 8. Our adding this
original action to the mix “put[s] this case and any
redistricting map it would produce on a collision
course” with the pending federal cases,” risking further
uncertainty for both voters and candidates in the 2022

App. 124
elections. See Jensen, 249 Wis. 2d 706, ¶16. Although
we acknowledged in Jensen that redistricting
challenges likely meet our criteria for original
jurisdiction, see id., ¶17, that was nine years before the
legislature enacted Wis. Stat. §§ 751.035 and
801.50(4m). Moreover, whether this petition meets our
original-jurisdiction criteria is beside the point. Again,
the question is not whether we can take the case but
whether we should.
We have been in this situation before. Just last
term, we denied then-President Trump’s original action
petition challenging the recount of the presidential
election results because Wis. Stat. § 9.01(11) requires
candidates to file such challenges in the circuit court.
See Trump v. Evers, No. 2020AP1971-OA, order (Wis.
Dec. 3, 2020). As in this case, nothing necessarily
prevented us from granting Trump’s petition, but we
rightly decided that when the legislature establishes a
process for specific actions, we should follow that
process. See id. (Hagedorn, J., concurring). There is no
reason to chart a different course now.
The majority’s order charts no course whatsoever. It
drops the court into the redistricting wilderness
without even a compass. The order sets forth no plan
for how seven Justices with no experience in drawing
district maps should go about this Herculean task
while simultaneously attending to the rest of the
court’s docket. Although I trust my colleagues as
jurists, I do not share their confidence that we can
simultaneously be legislators, cartographers, and
mathematicians. Acting as if we can is bad for the court
and worse for the people of Wisconsin. Redistricting is

App. 125
a difficult process when it involves only two branches
of government. The majority now prematurely,
inappropriately, and recklessly involves the third.
For all of these reasons, the court should deny the
petition. I dissent.
I am authorized to state that Justices ANN WALSH
BRADLEY and JILL J. KAROFSKY join this dissent.
Sheila T. Reiff
Clerk of Supreme Court

App. 126
Address list continued:
Jeffrey A. Mandell
Richard Manthe
Douglas M. Poland
Rachel E. Snyder
Stafford Rosenbaum LLP
P.O. Box 1784
222 West Washington Ave.,
Suite 900
Madison, WI 53701-1784

Aria C. Branch
Daniel C. Osher
Jacob D. Shelly
Christina A. Ford
William K. Hancock
Elias Law Group LLP
10 G Street, NE,
Suite 600
Washington, D.C. 20002

Kevin M. St. John
Bell Giftos St. John LLC
Suite 2200
5325 Wall Street
Madison, WI 53718

Annabelle E. Harless
Campaign Legal Center
55 W. Monroe St.,
Ste. 1925
Chicago, IL 60603

Daniel R. Suhr
Attorney at Law
220 Madero Drive
Thiensville, WI 53092

Mark P. Gaber
Christopher Lamar
Campaign Legal Center
1101 14th St. NW,
Ste. 400
Washington, D.C. 20005

Misha Tseytlin
Kevin M. LeRoy
Troutman Pepper Hamilton
Sanders LLP
Suite 3900
227 W. Monroe St.
Chicago, IL 60606
Mel Barnes
Law Forward, Inc.
P.O. Box 326
Madison, WI 53703

